APPENDIX TABLE OF CONTENTS
Resolution of the Supreme Court of Puerto Rico,
Assigment Session III Denying Discretionary
Review (Entry: October 23, 2019) ............................ 1a
Resolution of the Court of Appeals of Puerto Rico
Judicial Region of San Juan
(Entry: April 22, 2019) .............................................. 6a
Judgment of the Court of Appeals of Puerto Rico
Judicial Region of San Juan
(Entry: March 27, 2019) ......................................... 12a
Judgment of the Court of First Instance of Puerto
Rico Judicial Center of San Juan Superior Court
Courtroom 807 (Entry: September 20, 2018)......... 30a
Constitutional and Statutory Provisions .............. 46a
Petition for Writ of Certiorari
(Filed: May 22, 2019) .............................................. 63a
HUD Handbook–Excerpts .................................... 104a

App.1a

RESOLUTION OF THE SUPREME COURT OF
PUERTO RICO, ASSIGMENT SESSION III
DENYING DISCRETIONARY REVIEW
(ENTRY: OCTOBER 23, 2019)
NoReply@ramajudicial.pr <NoReply@ramajudicial.pr>
To: mongelafosselaw@gmail.com
23 October 2019 at 16:46
THE COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPERIOR COURT
________________________
RAMOS GONZALEZ, LUIS A. AND OTHERS,

Petitioner,
v.
SCOTIABANK OF PUERTO RICO AND OTHER,

Appealed.

________________________

Case Number: CC-2019-0378
Original: SJ2017CV01870
Appeals: KLAN201801350
Civil Suit
Civil Suit or Felony
zayas febres, angel ramon, esq
zayasfebreslaw@gmail.com

App.2a
Notice of Amended
I CERTIFY THAT REGARDING THE PETITION
FOR A WRIT OF CERTIORARI THE COURT
[Quoted text hidden]
Click here to access the electronic document referenced
in this notice. The document shall be available through
this link for 45 days from the notice filing date.
Bellver Espinosa, Alejandro, Esq.
alejandro@bellverlaw.com
Castillo Morales, Solymar N., Esq.
scastillo@gaclaw.com
Castro Martínez, Yelitza, Esq.
prservice@rasflaw.com
Fernández Martínez, Alfredo, Esq.
afernandez@delgadofernandez.com
Fortuño Fas, Juan C., Esq.
jcfortuno@fortuno-law.com
Gonzalez Diaz, Arlyn, Esq.
agonzalez@cnrd.com
Martinez Rivera, Jose M., Esq.
jmartinez@delgadofernandez.com
Nigaglioni Arrache, Julio, Esq.
jnigaglioni@rmmelaw.com
Reyes Peña, Erasmo A., Esq.
erasmorp@prtc.net
Rivero Marin, Rosanna, Esq.
rosanna.rivero@gaclaw.com

App.3a
Ruiz Melendez, Pedro E, Esq.
pruiz@ruizlawoffices.com
Sáez Marrero, Andrés, Esq.
amarrero@tromberglawgroup.com
Santiago Pagán, Lourdes Melissa, Esq.
lsantiago@ruizlawoffices.com
Santiago Sánchez, Cristal, Esq.
prservice@rasflaw.com
Valderrabano Marina, Fernando J., Esq.
fvalderrabano@cnrd.com
NOTES BY THE CLERK AMENDED TO INCLUDE
THE LEGAL REPRESENTATIVE FOR THE PETITIONERS IN SAN JUAN, PUERTO RICO, ON OCTOBER 23, 2019
Jose Ignacio Campos Pérez, Esq.
Clerk of the Superior Court
By: F/ Evelyn Ramos Velilla
Deputy Clerk

App.4a

IN THE SUPREME COURT OF PUERTO RICO
ASSIGNMENT SESSION III
________________________
LUIS A. RAMOS GONZÁLEZ ET AL,

Appellants,
v.
SCOTIABANK OF PUERTO RICO ET AL,

Appellees.

________________________
No. CC-2019-0378

Assignment Session made up of Associate Justice
Mr. Martínez Torres as its President, and Associate
Justices Mr. Rivera García and Mr. Colón Pérez.
RESOLUTION
In San Juan, Puerto Rico, on June 14, 2019.
Having reviewed the Certiorari petition by the
appellant, it is denied.
Accordingly, the petitioner will have ten (10) working days from notice of this Resolution to petition
reconsideration of same. Rule 45(b) of the Supreme
Court Regulations, 4 LPRA AP. XXI-A. In the event
of interesting in requesting reconsideration, given that
the petitioner does no [sic] have an attorney at this
moment, it may hire new legal representation and
proceed to notify it immediately to this Court.

App.5a
Ordered to be notified directly to the petitioning
party.
So agreed by the Court and certified by the Clerk
of the Supreme Court.
/s/ José Ignacio Campos Pérez
Clerk of the Supreme Court
====================================
CERTIFICATE OF TRANSLATOR # JF-2019-469
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation of the Spanish source, which I have performed
to the best of my ability. It consists of four (4) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an emailed notification and a Judgment of the Supreme Court of Puerto
Rico appeals case CC-2019-0378.
In Cambridge, Massachusetts, on October 24,
2019.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.6a

RESOLUTION OF THE COURT OF APPEALS OF
PUERTO RICO JUDICIAL REGION OF SAN JUAN
(ENTRY: APRIL 22, 2019)
NoReply@ramajudicial.pr <NoReply@
ramajudicial.pr> April 22, 2019 at 4:38 p.m.
To: mongelafosselaw@gmail.com
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE COURT OF
APPEALS JUDICIAL REGION OF SAN JUAN
________________________
RAMOS GONZALEZ, LUIS A
v.
SCOTIABANK DE PUERTO RICO
________________________
Case No. KLAN201801350
RE: Civil Appeal
Notice
To:
Atty. Monge Lafosse,Grace
mongelafosselaw@gmail.com
Atty. Bellver Espinosa, Alejandro
alejandro@bellverlaw.com
Atty. Castillo Morales, Solymar N.
scastillo@gaclaw.com
Atty. Castro Marti Nez, Yalitza

App.7a
prservice@rasflaw.com
Atty. Fernández Martínez, Alfredo
afernandez@delgadofernandez.com
Atty. Fortuño Fas, Juan C.
jcfortuno@fortuno-law.com
Atty. Gonzalez Diaz, Arlyn
agonzalez@cnrd.com
Atty. Martinez Rivera, Jose M
jmartinez@delgadofernandez.com
Atty. Nigaglioni Arrache, Julio
jnigaglioni@rmmelaw.com
Atty. Reyes Peña, Erasmo A
erasmorp@prtc.net
Atty. Rivero Marin, Rosanna
rosanna.rivero@gaclaw.com
Atty. Ruiz Melendez, Pedro E
pruiz@ruizlawoffices.com
Atty. Sáez Marrero, Andrés
amarrero@tromberglawgroup.com
Atty. Santiago Pagán, Lourdes Melissa
lsantiago@ruizlawoffices.com
Atty. Santiago Sanchez, Krystal
krystal@bellverlaw.com
Atty. Valderrábano Marina, Fernando J
fvalderrabano@cnrd.com
General Clerk, San Juan (Alternate)
Po Box 190887
San Juan, PR 00919

App.8a
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT IN RELATION TO THE:
MOTION FOR RECONSIDERATION-APRIL 11, 2019.
THIS COURT ISSUED A RESOLUTION IN
RECONSIDERATION ON APRIL 22, 2019, OF
WHICH A COPY IS ATTACHED OR FOR WHICH A
LINK IS PROVIDED:
Click here to access the electronic document to
which this notice refers. The document will be
available through this link for 45 days from the
time the notice was filed in the case record.
YOU ARE ADVISED THAT SINCE YOU ARE
A PARTY OR THE LEGAL REPRESENTATIVE
THEREOF IN THE CASE SUBJECT TO THIS
RESOLUTION, WITH RESPECT TO WHICH AN
APPEAL OR PETITION FOR CERTIORARI MAY BE
FILED, IN ACCORDANCE WITH THE PROCEDURE
AND THE TIME PERIOD ESTABLISHED BY LAW,
RULE OR REGULATION, I SEND THIS NOTICE
TO YOU.
I FURTHER CERTIFY THAT TODAY I SENT
COPIES OF THIS NOTICE TO THE INDIVIDUALS
INDICATED ABOVE, TO THEIR ADDRESSES OF
RECORD IN THE CASE, IN ACCORDANCE WITH
APPLICABLE REGULATIONS. ON THIS SAME
DATE, A COPY OF THIS NOTICE WAS FILED IN
THE CASE RECORD.

App.9a
IN SAN JUAN, PUERTO RICO, ON APRIL 22,
2019.
Lilia M. Oquendo Solis
Name of the Clerk of the
Court of Appeals
p.p.: F/ Suheil Torres Santiago
Name and Signature of the
Deputy Clerk of the Court

App.10a

COMMONWEALTH OF PUERTO RICO COURT OF
APPEALS JUDICIAL REGION XI
________________________
LUIS A. RAMOS GONZÁLEZ ET AL,

Appellants,
v.
SCOTIABANK OF PUERTO RICO ET AL,

Appellees.

________________________
No. KLAN201801350
Civil No. SJ2017CV01870
Re: Construction Defects

Appeal Emanating from the Court of
First Instance, Court of San Juan
Panel composed of Chief Judge Cortés González,
Judge González Vargas and Judge Rivera Colón.
RESOLUTION
In San Juan, Puerto Rico, on April 22, 2019.
After review of the Motion for Reconsideration
filed by the appellants, said motion is Denied since the
arguments presented therein fail to adduce grounds
for us to alter our decision of March 26, 2019.
Ruled and ordered by the Court and certified by
the Clerk of the Court.

App.11a

/s/ Lilia M. Oquendo Solís
Clerk of the Court of Appeals
====================================
CERTIFICATE OF TRANSLATOR # JF-2019-469
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation of the Spanish source, which I have performed
to the best of my ability. It consists of four (4) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an Electronic
Notice and a Resolution in Commonwealth of Puerto
Rico Civil Appeal No. KLAN201801350.
In Cambridge, Massachusetts, on June 10, 2019.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.12a

JUDGMENT OF THE COURT OF APPEALS OF
PUERTO RICO JUDICIAL REGION OF SAN JUAN
(ENTRY: MARCH 27, 2019)
NoReply@ramajudicial.pr <NoReply@ramajudicial.pr>
March 27, 2019 at 2:07 p.m.
To: mongelafosselaw@gmail.com
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE COURT OF
APPEALS JUDICIAL REGION OF SAN JUAN
________________________
RAMOS GONZALEZ, LUIS A
v.
SCOTIABANK DE PUERTO RICO
________________________
Case No. KLAN201801350
Re: Civil Appeal
Notice
To:
Atty. Monge Lafosse,Grace
mongelafosselaw@gmail.com
Atty. Bellver Espinosa, Alejandro
alejandro@bellverlaw.com
Atty. Castillo Morales, Solymar N.
scastillo@gaclaw.com
Atty. Castro Marti Nez, Yalitza

App.13a
prservice@rasflaw.com
Atty. Fernández Martínez, Alfredo
afernandez@delgadofernandez.com
Atty. Fortuño Fas, Juan C.
jcfortuno@fortuno-law.com
Atty. Gonzalez Diaz, Arlyn
agonzalez@cnrd.com
Atty. Martinez Rivera, Jose M
jmartinez@delgadofernandez.com
Atty. Nigaglioni Arrache, Julio
jnigaglioni@rmmelaw.com
Atty. Reyes Peña, Erasmo A
erasmorp@prtc.net
Atty. Rivero Marin, Rosanna
rosanna.rivero@gaclaw.com
Atty. Ruiz Melendez, Pedro E
pruiz@ruizlawoffices.com
Atty. Sáez Marrero, Andrés
amarrero@tromberglawgroup.com
Atty. Santiago Pagán, Lourdes Melissa
lsantiago@ruizlawoffices.com
Atty. Santiago Sanchez, Krystal
krystal@bellverlaw.com
Atty. Valderrábano Marina, Fernando J
fvalderrabano@cnrd.com
General Clerk, San Juan (Alternate)
Po Box 190887
San Juan, PR 00919

App.14a
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT IN RELATION TO THE:
MOTION FOR RECONSIDERATION-APRIL 11, 2019
THIS COURT ISSUED A RESOLUTION IN
RECONSIDERATION ON APRIL 22, 2019, OF
WHICH A COPY IS ATTACHED OR FOR WHICH A
LINK IS PROVIDED:
Click here to access the electronic document to
which this notice refers. The document will be available through this link for 45 days from the time
the notice was filed in the case record.
YOU ARE ADVISED THAT SINCE YOU ARE
A PARTY OR THE LEGAL REPRESENTATIVE
THEREOF IN THE CASE SUBJECT TO THIS
RESOLUTION, WITH RESPECT TO WHICH AN
APPEAL OR PETITION FOR CERTIORARI MAY BE
FILED, IN ACCORDANCE WITH THE PROCEDURE
AND THE TIME PERIOD ESTABLISHED BY LAW,
RULE OR REGULATION, I SEND THIS NOTICE
TO YOU.
I FURTHER CERTIFY THAT TODAY I SENT
COPIES OF THIS NOTICE TO THE INDIVIDUALS
INDICATED ABOVE, TO THEIR ADDRESSES OF
RECORD IN THE CASE, IN ACCORDANCE WITH
APPLICABLE REGULATIONS. ON THIS SAME
DATE, A COPY OF THIS NOTICE WAS FILED IN
THE CASE RECORD.
In San Juan, Puerto Rico, On April 22, 2019.
Lilia M. Oquendo Solis
Name of the Clerk of the
Court of Appeals
p.p.: /s/ Eneida Romero Bonilla

App.15a
Name and Signature of the
Deputy Clerk of the Court

App.16a

COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS PANEL XI
________________________
LUIS A. RAMOS GONZÁLEZ ET AL,

Appellants,
v.
SCOTIABANK OF PUERTO RICO ET AL,

Appellees.

________________________
No. KLAN201801350
Civil No. SJ2017CV01870
Re: Construction Defects

Appeal Emanating from the Court of
First Instance, Court of San Juan
Before: Chief Judge Cintrón Cintrón,
Judge Surén Fuentes and Judge Cortés González.
Judge Cintrón Cintrón drafted the opinion of the
court.
JUDGMENT
In San Juan, Puerto Rico, on March 26, 2019.
Luis A. Ramos González and the other co-plaintiffs
(appellants) appear seeking that we reverse the
Judgment issued by the Court of First Instance, Court

App.17a
of San Juan (CFI) by which it dismissed the abovecaptioned complaint.
Of the appellees, six1 submitted their respective
opposition briefs, and with the benefit thereof we
proceed now to issue a decision.
Pursuant the basis set out below, we affirm the
appealed judgment.
I.
The originating facts arise from a complaint on
breach of contract and damages, among other causes,
filed by the appellants against over a dozen banks,
mortgage creditors and other parties of unknown
names. In summary, the appellants claimed damages
arising from a problem with the septic tanks of a
housing development in which they purchased homes,
the financing for which was provided by the codefendant banks.2
Meanwhile, six3 of the co-defendant banks separately filed motions to dismiss. In addition, several
co-defendants requested that the case be transferred to
the original court in Fajardo. It should be noted here
that the co-defendants that requested dismissal of the
above-captioned complaint argued that the same
causes had already been filed by the same parties
1 These are: Operating Partners Co., LLC, TRM, LLC, Scotiabank
de PR, Banco Popular de PR, Oriental Bank and Banco Santander.
Subsequently, FirstBank PR filed a motion, joining the opposition briefs of TRM, Scotia, Oriental and Banco Popular.
2 Appendix to the appeal, pp. 1-1720.
3 These are: Operating Partners Co.; Banco Popular de PR; FirstBank PR; PRIH LLC; Scotiabank de PR; Oriental Bank PR.

App.18a
and had been dismissed by means of a Partial Judgment issued on October 5, 2012 in the previous case
filed in 2007 before the original court in Fajardo.4
After the aforementioned motions, the CFI handed
down the Judgment appealed herein, dismissing the
complaint for failure to state a cause for which relief
may be granted, and for constituting res judicata,
thus rendering a determination on the motion for
change of venue unnecessary.5
In weighing these motions, the CFI concluded that
the doctrine of res judicata applied to the abovecaptioned complaint vis-à-vis the complaint previously
dismissed by the original court in Fajardo; therefore,
it was appropriate to dismiss the current complaint,
since the same causes filed by the same parties in
2007 had already been heard and dismissed in the
Partial Judgment issued in 2012.
In disagreement, and after their motion for reconsideration was denied, the appellants appeared before
us and alleged that the CFI erred as follows:
The [CFI] erred in failing to interpret and
apply to the instant case the provisions of the
federal regulations cited in the complaint
and consequently dismissing the complaint
under Rule 10.2 (5) of Civil Procedure. It
also erred in confusing the cause of action of
the instant case (absolute nullity of mortgage
financing agreement for violations of federal
regulations; absolute nullity of mortgage
deeds arising from null and void financing and
4 See Appendix to the appeal, pp. 1747-1774.
5 Appendix to the appeal, pp. 2980-2987.

App.19a
established on unqualifying (“unacceptable
site”) real property, civil (case “Gil Freddy
Mojica”) for construction defects, where the
cause of action against the banks was dismissed under the rules of the Chase Manhattan
Bank case. The confusion lead to the incorrect application of the doctrine of res judicata.
II.
Rule 10.2 of Civil Procedure
Our Rule 10.2 of Civil Procedure, 32 LPRA App.
V, R. 10.2, is one of the procedural vehicles available
for a party to move for dismissal of a complaint.
Grounds for dismissal include: failure to state a claim
for which relief may be granted. Case law has established that under this subsection (5), the court shall
accept as true all facts well pleaded in the complaint
that have been asserted clearly and conclusively and
that on their face leave no room for doubt.
In order to properly adjudicate a motion to dismiss
in accordance with the aforementioned rule, the court
is obligated to accept as true and reliable all factual
allegations of the complaint that have been clearly
asserted. El Día, Inc. v. Mun. de Guaynabo, 187 DPR
811, 821 (2013); Asoc. Fotoperiodistas v. Rivera Schatz,
180 DPR 920, 935 (2011); Roldán v. Lutrón, S.M., Inc.,
151 DPR 883, 889-891 (2000); Harguindey Ferrer v.
U.I., 148 DPR 13, 30 (1999); Ramos v. Marrero, 116
DPR 357, 369 (1985). Meanwhile, the allegations made
in the complaint must be interpreted jointly, liberally
and in the most favorable way possible for the plaintiff.
Rivera Sanfeliz, et al. v. Jta. Dir. First Bank, 193 DPR
38, 49 (2015); Ortiz Matías et al v. Mora Development,
187 DPR 649 (2013); Asoc. Fotoperiodistas v. Rivera

App.20a

Schatz, 180 DPR 920, 935 (2011); Aut. Tierras v.
Moreno & Ruiz Dev. Corp., supra, pp. 428-429. It

must be considered “whether, in the light of the situation most favorable to the plaintiff, and resolving
any doubt in favor thereof, the complaint is sufficient
to constitute a valid claim.” Colón v. Lotería, 167 DPR
625, 649 (2006). It is also important to keep in mind
that the purpose of the allegations is to outline “roughly
what the claims are [against the defendant so that]
said defendant can appear [to defend himself] if he so
wishes.” Torres, Torres v. Torres et al, 179 DPR 481,
501 (2010); Reyes v. Cantera Ramos, Inc., 139 DPR
925, 929 (1996).
However, this does not mean that any type of
allegation will be deemed to be allowed. It has been
established that interpretations of documents, conclusions of law or unjustified inferences from the
facts, as well as hypothetical or conclusive allegations,
will under no circumstances be deemed allowable. J.A.
Cuevas Segarra, Tratado de Derecho Procesal Civil,
2nd ed., JTS, 2011, Vol. II, p. 532- 533.

Nor will a complaint be dismissed, unless it is
shown that the plaintiff has no right to any relief,
under any facts he may be able to prove. Moreover, it
is not appropriate to dismiss if the complaint may be
amended. Aut. Tierras v. Moreno & Ruiz Dev. Corp.,
174 DPR 409, 429 (2008); Colón v. Lotería, supra. We
should consider whether, in the light of the situation
most favorable to the plaintiff, and resolving any
doubt in favor thereof, the complaint is sufficient to
constitute a valid claim. Aut. Tierras v. Moreno & Ruiz
Dev. Corp., supra, p. 429; Colón v. Lotería, supra. Of
course, the liberality with which the allegations of a
complaint are interpreted does not bind a court to

App.21a
keeping a case alive if, after reviewing the matter, it
is fully convinced that the party will not ultimately
prevail. J.A. Cuevas Segarra, op. cit., p. 533. Additionally, a complaint should be dismissed where the cause

of action lacks merit under any conceivable right and,
therefore, may not be amended. J.A. Cuevas Segarra,
op. cit., p. 533.

In short, the controversy revolves around whether
the plaintiff has the right to present evidence to justify
his claim, assuming the facts well pleaded in the
complaint are true. J.A. Cuevas Segarra, op. cit., p. 530.
The movant for dismissal must demonstrate that,
presuming that what is stated therein is true, the
complaint does not state a claim for which relief may
be granted. Pressure Vessels v. Empire Gas, 137 DPR
497, 505 (1994). This doctrine applies only to facts
well pleaded and expressed in a clear and conclusive
manner, which on their face leave no room for doubt.
Sánchez v. Autoridad de los Puertos, 153 DPR 559,
569 (2001).
The complaint may not be dismissed unless it is
determined with all certainty that the plaintiff has
no right to any relief under any factual circumstances
that may be provable in support of his claim. Consejo
de Titulares v. Gómez Estremera et al, 184 DPR 407,
423 (2012); Pressure Vessels P.R. v. Empire Gas P.R.,
supra. It is thus necessary to consider whether, in
the light of the situation most favorable to the plaintiff,
and resolving any doubt in favor thereof, the complaint
is sufficient to constitute a valid claim. Id.

App.22a
Res Judicata
Our system of civil law establishes one of the
principles of judicial certainty and procedural order,
namely: res judicata. Feliciano Ruiz v. Alfonso Develop.
Corp., 96 DPR 108, 114 (1968). This is defined and
governed by article 1204 of the Civil Code of Puerto
Rico, 31 LPRA § 3343, which reads as follows:
Presumptions established by the law may be
disproved by evidence to the contrary, except
in cases where it is expressly prohibited by
law.
Only a judgment won in review proceedings
will be effective against the presumption of
truth of res judicata.
For the presumption of res judicata to be
effective in other proceedings, there must be
the most perfect identity of the subject
matters, causes, persons of the litigants and
their capacity as such between the case
adjudicated by the judgment and the case in
which res judicata is invoked.
In matters relating to the marital status of
individuals and in those concerning validity
or nullity of testamentary dispositions, the
presumption of res judicata is effective
against third parties, even if they had not
litigated.
It is understood that there is identity of
persons where the litigants in the second case
are successors in interest of the litigants in
the previous lawsuit, or where they are tied
to them by the bonds of joint and several

App.23a
liability or by bonds establishing indivisibility
of obligations among those entitled to enforce
them or with the obligation to satisfy them.
This precept confers finality to litigations upon
final adjudication by the courts. Moreover, it seeks to
provide definiteness, certainty and assurance to the
rights of the parties involved that are recognized by
court rulings. It has been repeatedly affirmed that
this legal vehicle prevents relitigation of matters that
were or could have been litigated and were or could
have been adjudicated in the previous lawsuit. In
short, it prevents cases from being litigated ad
infinitum. Parrilla v. Rodríguez, 163 DPR 263, 268
(2004); Worldwide Food Dis., Inc. v. Colón et al., 133
DPR 827, 833-834 (1993).
Res judicata is grounded in important procedural
interests for our system of administration of justice,
i.e. finalizing litigation and ensuring that citizens are

not repeatedly subjected to the burdens of judicial
proceedings. Méndez v. Fundación, 165 DPR 253, 267
(2005); Parrilla v. Rodríguez, supra.

However, for a defense of res judicata to have
merit, it is a sine qua non requirement that there be—
between the case previously adjudicated by the ruling
and the case in which said defense is invoked—the
most perfect identity of subject matters, causes,
litigants and their capacity as such. Szendrey Ramos
v. Consejo de Titulares, 184 DPR 133, 155 (2011);
Méndez v. Fundación, supra; Banco de la Vivienda v.
Carlo Ortiz, 130 DPR 730, 739 (1992). Rodríguez
Rodríguez v. Colberg Comas, 131 DPR 212 (1992)
defines the aforementioned elements as follows:

App.24a

The requirement of identity of “cause” established by Article 1204 of the Civil Code, supra,
as interpreted by J.M. Manresa, Comentarios al Código Civil Español, 5th ed. rev.,
Madrid, Ed. Reus, 1950, Book VIII, Vol. 2,
pp. 237-242, and accepted by this Court in
Mercado Riera v. Mercado Riera, 100 DPR
940, 951-952 (1972), means that:
For the purposes of res judicata, the word
cause has a meaning that is not the reason
or motive for a contract or legal transaction.
It means the principal basis, the origin of
the actions or defenses raised and adjudicated,
and it should not be confused with the means
of evidence nor with the legal grounds of the
claims filed by the parties.
Although, as we stated above, the successive
exercise of different actions is generally
possible, the first matter adjudicated can
constitute res judicata for the second case
where the new action is embedded in the
first, or where it is an inseparable consequence thereof: thus, upon dismissal of the
petition of an alleged co-owner claiming coownership, which is denied, it is logical that
he cannot subsequently exercise the action
to request division of the common property,
etc.
Moreover, regarding the requirement of identity of subject matters, Scaevola states:
It may be a case of absolute identity, in the
sense that the second case refers to the
same property or object as the first, but in

App.25a
general it suffices for it to refer to the same
subject matter, even if in one case it is
addressed in its entirety and in the other it
is addressed only partially, and even if the
subject matters have been decreased or
altered, from the first to the second,
affecting their value or any other condition
thereof. (Emphasis supplied.) QM Scaevola,
Civil Code, Madrid, Ed. Reus, 1958, p. 534.
Finally, regarding the identity of the persons
of the litigants, Article 1204 of the Civil
Code, supra, states that:
It is understood that there is identity of
persons where the litigants in the second
case are successors in interest of the litigants
in the previous lawsuit, or where they are
tied to them by the bonds of joint and several
liability or by the bonds establishing indivisibility of obligations among those entitled to
enforce them or with the obligation to
satisfy them.
The requirement of identity of parties in res
judicata and in its form of collateral estoppel, which we reaffirmed in A&P Gen. Contractors v. Asoc. Cana, supra, follows the
mutuality rule, which prohibits the plea of
res judicata “against a party . . . unless it was
an original party or is in privity with
another. . . . ” (Citation omitted). Rodríguez
Rodríguez v. Colberg Comas, supra, on pp.
219-221.
Meanwhile, the courts of justice are not obligated
to use the above rule, since the Puerto Rico Supreme

App.26a
Court has rejected its automatic application. Our system of laws recognizes several instances where it would
be ill-advised to apply it, namely: “Where in doing so
the ends of justice are defeated or distorted, where it
produces an absurd outcome or where considerations
of public interest are raised.” (Citations omitted.)
Méndez v. Fundación, supra; p. 268; Parrilla v. Rodríguez, supra, p. 270; Banco de la Vivienda v. Carlo
Ortiz, supra. However, this does not mean that the
application of res judicata has been rendered ineffective, since it was clarified that where there is the risk
of upsetting the nature or quality of finalizing adjudicated disputes, liberal application of the recognized
exceptions is not recommended. Id.
III.
The appellants invite us to review whether the
court below erred by dismissing the above-captioned
complaint on the grounds of lacking a cause for which
relief may be granted and by incorrectly applying the
principle of res judicata. In short, they propose that
the Court should have applied certain federal regulations preventing the summary disposition of their
claims. Their argument does not stand to reason.
After thoroughly reviewing the case record and
examining the controversy in the light of applicable
law, we conclude that the imputed error was not made.
Let us consider the following.
Upon examining the above-captioned case (filed
in 2017) vis à vis the case filed over 10 years earlier
with the original court in Fajardo (2007), which was
dismissed (2012), we note that it concerns the same
parties, subject matter and causes of action. Both
lawsuits were filed by the same parties against the

App.27a
same defendants. The issue, subject matter and cause
of action of the complaint are the same: the damage
caused by defects in the septic tanks and the alleged
liability of the co-defendants.
The appellants argue that they are different cases
since the first one (filed in 2007 in Fajardo) deals
with construction defects while the current one (2017)
asserts the absolute nullity of the contract on the
grounds of violation of federal law. They assert that
the co-defendant banking institutions should not have
authorized the financing for the dwellings in question
because if they had fulfilled their duty to inspect the
condition of the dwellings, they would have discovered
that the septic tank problem made them unacceptable
sites, i.e., non-financeable.
Meanwhile, grosso modo, the co-appellees argued
that over a decade ago, the original court of Fajardo
heard and dismissed the same claims of the same
parties, and therefore the aforesaid decision, affirmed
by the Court of Appeals and the Supreme Court,6 is
not only final and conclusive, but it also constitutes
res judicata in the above-captioned appeal.
In particular, co-appellee Banco Santander stated
that the new above-captioned action was filed against
it by the same party (Rolando Franquiz) as in the
first case. The claim continues to be the same: damage
caused by septic tanks allegedly built in violation of
state and federal laws and regulations.
Meanwhile, co-appellee Operating Partners Co.
adds that, in addition to being res judicata, in the
alternative, it cannot be a party in the lawsuit because
6 Appendix to the appeal, pp. 2924-2954.

App.28a
it assigned its loan to TRM LLC. In addition, it requests
the imposition of attorney fees for frivolous litigation.
The other appearing co-appellees, Oriental Bank,
Banco Popular, Scotiabank and TRM, agree that the
CFI did not err in dismissing the case, since the
doctrine of res judicata applies with respect to the
first lawsuit filed in Fajardo (2007) and dismissed
(2012). Banco Popular adds that the appellants seek
to mislead by changing the order of the co-plaintiffs
in above-captioned case (pp. 12-14). Scotia, meanwhile,
requests attorney fees on the grounds of frivolous litigation. And, finally, TRM, LLC, states that in 2006 it
obtained a determination in its favor by a default
judgment in the complaint on collection of monies
and mortgage foreclosure filed against the now coplaintiffs (Víctor M. Figueroa Rexach, his wife and
their conjugal partnership). Moreover, the property
was auctioned and awarded to TRM.7 For the foregoing
reasons, it is inappropriate to relitigate the alleged
contractual nullity of the above-captioned mortgage
loan.
IV.
Pursuant to the above grounds, we affirm the
appealed Judgment.
Ruled and ordered by the Court and certified by
the Court Clerk.
/s/ Lilia M. Oquendo Solís
Clerk of the Court of Appeals
7 Appendix to TRM’s brief, Exhibits 1-3.

App.29a

====================================
CERTIFICATE OF TRANSLATOR # JF-2019-176
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation of the Spanish source, which I have performed to
the best of my ability. It consists of thirteen (13)
pages, including this certification sheet, and contains
no changes or erasures.
The content of this translation is an Electronic
Notice and a Judgment in Commonwealth of Puerto
Rico Civil Appeal No. KLAN201801350.
In Cambridge, Massachusetts, on June 11, 2019.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.30a
JUDGMENT OF THE COURT OF FIRST
INSTANCE OF PUERTO RICO JUDICIAL
CENTER OF SAN JUAN SUPERIOR COURT
COURTROOM 807
(ENTRY: SEPTEMBER 20, 2018)
noreply@ramajudicial.pr <noreply@ramajudicial.pr>
September 21, 2018 at 04:25 a.m.
To: MONGELAFOSSELAW@gmail.com
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE COURT OF
APPEALS JUDICIAL REGION OF SAN JUAN
SUPERIOR COURT OF SAN JUAN
________________________
LUIS ANÍBAL RAMOS GONZALEZ
v.
SCOTIABANK DE PUERTO RICO ET AL
________________________
Case No. SJ2017CV01870
(Civil Courtroom 807)
Re: Cancellation of Property
Registry Entries and Other
Notice
To
Alejandro Bellver Espinosa
alejandro@bellverlaw.com
Alfredo FernándezMartinez

App.31a
afernandez@delgadofernandez.com
Andrés Sáez Marrero
amarrero@tromberglawgroup.com
Arlyn Gonzalez Diaz
agonzalez@cnrd.com
Erasmo A Reyes Peña
erasmorp@prtc.net
Fernando J Valderrábano Marina
fvalderrabano@cnrd.com
Grace Monge Lafosse
mongelafosselaw@gmail.com
Jose M Martinez Rivera
jmartinez@delgadofernandez.com
Juan C. Fortuno Fas
jcfortuno@fortuno-law.com
Julio Nigaglioni Arrache
jnigaglioni@rmmelaw.com
Krystal Santiago Sanchez
krystal@bellverlaw.com
Lourdes Melissa Santiago Pagán
lsantiago@ruizlawoffices.com
Pedro E Ruiz Melendez
pruiz@ruizlawoffices.com
Solymar N. Castillo
scastillo@gaclaw.com
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT IN RELATION TO THE
ABOVE-CAPTIONED CASE, This Court Issued a
JUDGMENT on September 19, 2018.

App.32a
A copy is attached or link provided:
Click here to access the electronic document to
which this notification relates. [76]
YOU ARE ADVISED that since you are a party
or the legal representative thereof in the case subject
to this JUDGMENT, you may file an appeal, motion
for review or petition for certiorari, in accordance
with the procedure and the time period established
by law, rule or regulation.
I CERTIFY THAT the determination issued by the
Court was duly entered and filed today, September 20,
2018, and copies of this notice were sent to the
individuals indicated above, to their addresses of record
in the case, in accordance with applicable regulations.
On this same date, a copy of this notice was filed in
the case record.
In San Juan, Puerto Rico, on September 20, 2018.
Griselda Rodriguez Collado
Name of the Regional Clerk
p.p. /s/ Michelle Aquino Cruz
Name and Signature of the
Deputy Clerk of the Court

App.33a

COMMONWEALTH OF PUERTO RICO COURT OF
FIRST INSTANCE JUDICIAL CENTER OF SAN
JUAN SUPERIOR COURT COURTROOM 807
________________________
LUIS A. RAMOS GONZÁLEZ; ET AL.,

Plaintiffs,
v.
SCOTIABANK DE PUERTO RICO;

Defendants.

________________________

Civil No.: SJ2017CV01870
Re: Construction Defects
Before: Elisa A. FUMERO PÉREZ,
Superior Court Judge.
I. Introduction
We are tasked with determining if dismissal of
the above-captioned case is appropriate, as requested
by several co-defendants.1

1 See the motions to dismiss filed by Operating Partners, Co. on
January 5, 2017; by Banco Popular de Puerto Rico on February
27, 2018; by FirstBank Puerto Rico on March 5, 2018; by PRIH
LLC on March 7, 2018; by Scotiabank Puerto Rico on March 16,
2018 and by Oriental Bank Puerto Rico on June 6, 2018.

App.34a
II. Material Facts
The plaintiffs filed the above-captioned complaint
against several banking institutions and mortgage
creditors.2 In summary, they alleged that their residences had construction defects that, they assert, have
caused subhuman conditions in the housing development due to the fact that the septic tanks cause overflow of wastewater. In this respect, they argued that
the defendant companies violated federal regulations
when they originated the loans of the plaintiffs, and
that they acted in bad faith by omitting certain certifications in what in the loan industry is called origination and in executing the loan agreements; therefore,
they requested that the loan agreements be declared
null and void and that they be awarded millions of
dollars in damages.
We note that, in the instant case, the defendants
include the banks that granted the loans, banks that
acquired the loan portfolios of other banks, banks
that have assigned the loans to third parties, and,
finally, others that are not even successors in interest
of the banks that originated the loans, since they
acquired the loans through the Federal Insurance
Deposit Corporation [sic] (FDIC). Irrespective of the
foregoing, the plaintiff argues that they all had a
legal duty to inspect the condition of the residences
for which financing was granted to verify that they
met the requirements established by law to be used
2 These are: Scotiabank de Puerto Rico; First Bank Puerto Rico
(a/k/a FirstBank Puerto Rico); Banco Popular de Puerto Rico;
Banco Santander Puerto Rico; Oriental Bank (a/k/a Oriental
Bank and Trust); DLJ Mortgage Capital, Inc.; PRIH LLC;
Rushmore Loan Management Services LLC; Operating Partners,
Co., LLC; TRM, LLC, and others of fictitious and unknown names.

App.35a
as collateral. Therefore, the plaintiffs claim that all
the defendants are liable for the damage they claim.
After their respective appearances, the defendants
filed several motions in which they requested that
this Court take judicial notice of the case Gil Freddy
Mojica et al. v. Braulio Agosto et al.; NSCI200700504;
specifically, regarding the Partial Judgment issued on
October 5, 2012 by the Court of First Instance (CFI) of
Fajardo. The defendants argued that the subject of the
claim in this case is the same as in the Fajardo case,
and therefore the instant claim should be granted.
In summary, the defendants alleged that the
plaintiff has already presented these same arguments
in the Fajardo case and the Court not only issued a
Partial Judgment3 dismissing those arguments, but
also denied the fourth amended complaint.4 Thus, the
defendants reasoned that the plaintiffs filed the
above-captioned complaint in order to re-litigate
matters that were not allowed in Fajardo. Meanwhile,
the plaintiffs argued that they are distinct causes of
action. However, we simply need to read the Resolution
from the Hon. Jaime Benero García, Superior Court
Judge of Fajardo, to conclude that the allegations in
the instant case are the same allegations found to
lack merit in the Fajardo case.

3 Issued by the Hon. Juan M. Tirado Ríos.
4 Since it contained the same allegations as the case subject to
the Partial Judgment.

App.36a
III. Applicable Law
A.

Motions to Dismiss Under Rule 10.2 of Civil
Procedure

Rule 10.2 of Civil Procedure, 32A LPRA Ap. V, R.
10.2, establishes the grounds by which a party can
request dismissal of a complaint filed against it, namely: (1) lack of jurisdiction over the matter, (2) lack of
jurisdiction over the person, (3) inadequacy of process,
(4) inadequacy of service of process, (5) failure to state
a claim for which relief may be granted, and (6) failure
to join an indispensable party. (Emphasis ours). 32
LPRA Ap. V, R. 10.2. Dismissal may also be requested
for failure to comply with the Rules of Procedure or
for failure to comply with an order of the Court. 32
LPRA Ap. V, R. 39.2.
The aforementioned rule allows the defendant in
a case to request the dismissal of the complaint filed
against him before filing his answer to the complaint,
arguing that the complaint fails to state a claim for
which relief may be granted. Torres Torres v. Torres
et al., 179 DPR 481, 501 (2010).5
A motion to dismiss concedes the facts alleged in
the complaint or in the pleading against which it is
made. R. Hernández Colón, Práctica Jurídica de Puerto
Rico, Derecho Procesal Civil, 5th ed., LexisNexis, San
Juan, 2010, p. 269. Thus, on adjudicating a motion to
dismiss, the court is compelled to consider to be true
and reliable all factual allegations of the complaint
that have been clearly asserted. Roldán Rosario v.
Lutrón, S.M., Inc., 151 DPR 883, 891 (2000).
5 See also Aut. de Tierras v. Moreno & Ruiz Dev. Corp., 174
DPR 409, 428 (2008); Colon v. Lotería, 167 DPR 625, 649 (2006).

App.37a
When reviewing the motion, the court will consider
the facts in the manner most favorable to the plaintiff,
applying experience and common sense to determine
if, based on the facts well pleaded, the complaint
establishes a plausible claim for which relief may be
granted to the plaintiff. R. Hernández Colón, Práctica
Jurídica de Puerto Rico. Derecho Procesal Civil, 5th
Ed., San Juan, Lexis Nexis, 2010, p. 268.
The movant is responsible for demonstrating with
certainty that the plaintiff has no right to any relief
under any legal framework that could be established
in support of his claim, even in the case of a liberal
interpretation of his cause of action. Rivera Sanfeliz
et al. v. Jta. Dir. First Bank, 193 DPR 38, 49 (2015).6
Moreover, the Rules of Civil Procedure are clear in
that, although the facts alleged in the complaint will
be taken as true for the purposes of the motion to
dismiss, only those facts well pleaded will be taken
into consideration. Dorante v. Wrangler, 145 DPR 408,
413 (1998). Therefore, to weigh a motion to dismiss, the
court should exclude from the true facts any conclusive
allegations, conclusions of law not supported by facts,
facts presented generally to refer to the elements of a
cause of action, and bare allegations of facts in support of the claims. S. Steidel Figueroa, Controversias
en el Ordenamiento Procesal Civil: A Propósito del
Seminario de Procedimiento Civil, 47 Rev. Jur. U.I.P.R.
793, 800 (2013). Subsequently, the court must determine whether the other well-pleaded facts support the

6 See also Ortiz Matías et al. v. Mora Development, 187 DPR
649, 654 (2013); Conseto Titulares v. Gomez Estremera et al.,
184 DPR 407 (2012).

App.38a
conclusion that the defendant is liable for what he is
accused of. Id.
B.

The Doctrines of Res Judicata and Collateral
Estoppel

The purpose of the doctrine of res judicata is to
put an end to litigation after a final decision has been
issued by the courts, and to guarantee the certainty
and sureness of previously declared rights and avoid
additional expenses to both the State and to the
litigants. Ortíz Matías, et al. v. Mora Development, 187
DPR 649 (2013); Presidential v. Transcaribe, 186 DPR
263, 273 (2012). Thus, the doctrine is defined as
“what has already been decided by a final judgment
of a competent Judge or Court, and which carries in
itself the certainty of its irrevocability.” Presidential
v. Transcaribe, supra, p. 273, citing J.M. Manresa,
Comentarios al Código Civil Español, 6th ed. Rev.,
Madrid, Ed. Reus, 1967, T. VIII, Vol. 2, p. 278. It is
important to clarify that the doctrine of res judicata
does not apply inflexibly or automatically in cases in
which it could defeat the purposes of justice or considerations of public order. Negrón Vélez v. ACT, 196 DPR
489 (2016); Presidential v. Transcaribe, supra, p. 274;
Fonseca et al. v. Hosp. HIMA, 184 DPR 281, 294 (2012).
The application of the aforesaid doctrine results
in a situation where the judgment issued in the previous lawsuit prevents the litigation of the same
causes of action, matters and disputes already litigated
and adjudicated, and also those that could have been
litigated and were not. Blas v. Hospital Guadalupe, 167
DPR 439, 446 (1998). Moreover, application of the
doctrine of res judicata seeks to finalize lawsuits and
not subject persons to the burdens of having to litigate

App.39a
the same case twice. Ortíz Matías, et al. v. Mora Devel-

opment, supra.

In SLG Szendrey-Ramos v. Consejo de Titulares,
184 DPR 133, 155 (2011), the Supreme Court stated
that the requirements to apply the doctrine of res
judicata are the following: (a) there is a prior valid,
final and unappealable judgment; (b) the parties in
the first case are the same as in the second; (c) both
cases concern the same subject or matter; (d) the
same remedy requested in the first case is requested
in the second and; (e) the parties litigate in the same
capacity in both cases.
The doctrine of res judicata has two forms, namely:
(1) collateral estoppel, and; (2) splitting of causes.
Presidential v. Transcaribe, supra, p. 276; SLG Szendrey-Ramos v. Consejo de Titulares, supra. In the first,
the requirement of identity of causes does not apply,
and therefore “the claim presented in a complaint
need not be the same as that presented in the previous complaint.” Presidential v. Transcaribe, supra, pp.
276-277. Thus, this form “applies when an essential
fact for the pronouncement of a judgment is established and determined by a valid and final judgment
[and] such determination is conclusive in a second case
between the same parties, even if different causes of
action are involved.” Beníquez et al. v. Vargas et al..
184 DPR 210, 225 (2012). Thus, the application of this
form is limited to those matters that were litigated and
adjudicated and in cases in which the party against
whom the action is filed has had the opportunity to
previously litigate the matter. Id., p. 226.

App.40a
C.

Rule 201 of Evidence

Rule 201 of Evidence, 32 LPRA Ap. VI, R. 201,
allows the courts to take judicial notice of adjudicative
facts that are not subject to reasonable controversy
because they are general knowledge within the territorial jurisdiction of the court or are subject to immediate and accurate corroboration by sources whose accuracy cannot reasonably be questioned. Subsection (c) of
the aforesaid rule specifies that “[t]he court may take
judicial notice at its own initiative or at the request
of a party. If it is at the request of a party and said
party provides sufficient information to do so, the
court will take judicial notice.” Id. See also: Asoc. de
Periodistas v. González, 127 DPR 704, 715 (1991).
D.

Attorney fees for reckless litigation

Rule 44.1(d) of the Rules of Civil Procedure, 32
LPRA Ap. V, R. 44.1(d), provides that: “[I]n the event
that any party or its counsel has brought reckless or
frivolous litigation, the Court shall, in its judgment,
order the person responsible to pay an amount for
attorney fees that the Court deems to be appropriate
in such circumstances.” Conduct warranting the
imposition of attorney fees is that which makes a
lawsuit necessary where that lawsuit could have been
avoided. Andamios de P.R. v. Newport Bonding, 179
DPR 503, 520 (2010).
Reckless litigation “is an approach to proceedings
that negatively affects the proper functioning and
administration of justice.” Oliveras, Inc. v. Universal
Ins. Co., 141 DPR 900, 935 (1996). The imposition of
attorney fees seeks to penalize the litigant who
“because of his stubbornness, obstinacy and insistence
on a course of action without grounds, has obliged

App.41a
another party, unnecessarily, to deal with the burdens,
expense, work and inconveniences of a lawsuit.” S.L.G.
Flores-Jiménez v. Colberg, 173 DPR 843, 866 (2008).
The imposition of attorney fees for reckless litigation
rests on the discretion of the Court. Elba A.B.M. v.
UPR, 125 DPR 294, 329-330 (1990).
IV. Analysis
Pursuant to Rule 201 of Evidence, supra, the defendant requested that this Court take judicial notice of
the case of Gil Freddy Mojica et al. v. Braulio Agosto
et al.; NSCI200700504, heard in the judicial region of
Fajardo. The defendants included numerous attachments to their motions that give a clear picture of the
case heard in the Court of First Instance of Fajardo,
and this Court is thus in a position to adopt the facts
as determined by the Judge of the sister Region.
After reviewing the complaint, together with all
the motions to dismiss, this Court takes judicial
notice of the following:
On October 5, 2012, notified on March 18, 2013, the
CFI of Fajardo issued a Partial Judgment in which it
granted the motions to dismiss filed by all the financial institutions. There, it determined that the banks:
(1) were not liable for the sale transaction;
(2) were not obligated to inspect the construction to ensure compliance with the law;
(3) did not participate in the construction of the
project in any way;
(4) were not owners of the construction;

App.42a
(5) were not liable for damage caused intentionally, by negligence or by delinquency in the
performance of the Project;
(6) were not liable for the construction defects;
(7) neither promoted, nor designed, nor sold the
construction;
(8) did not overstep their role as financial institutions by granting permanent financing; and
(9) were not indispensable parties.
Unsatisfied with the Partial Judgment of the CFI,
the plaintiff filed an appeal with the Court of Appeals
(CA). On December 17, 2013, the CA affirmed the CFI’s
Partial Judgment. Said Partial Judgment became final
and conclusive. Therefore, the facts documented therein
should be respected by this Court as what they are:
res judicata.
Nearly three years later, on September 30, 2016,
the plaintiffs filed a Fourth Amended Complaint including the same causes of action that were dismissed. All
the defendant banking institutions and credit-holding
entities strongly opposed the CFI allowing the plaintiffs to relitigate all of the matters raised in the
Fourth Amended Complaint against the banking institutions. Subsequently, on June 30, 2017, the Hon.
Jaime Benero García, Superior Court Judge of the
Judicial Region of Fajardo, issued a Resolution in which
he denied the claim of the fourth amended complaint
and concluded that:
In the Partial Judgment issued on October 5,
2012, the Court [ . . . ] determined that the
banking institutions that granted permanent
financing: (1) were not liable for the sale

App.43a
transaction; (2) were not obligated to inspect
the construction to ensure compliance with the
law; (3) did not participate in the construction
of the project in any way; (4) were not owners
of the construction; (5) were not liable for
damage caused intentionally, by negligence
or by delinquency in the performance of the
Project; (6) were not liable for the construction
defects; (7) neither promoted, nor designed,
nor sold the construction; (8) did not overstep
their role as financial institutions by granting
permanent financing; and (9) were not indispensable parties [ . . . ].
We need only to read the Fourth Amended
Complaint to verify that the great majority,
if not all, of the causes of action against the
banks were considered and adjudicated by
the CFI in the Partial Judgment issued on
October 5, 2012. Therefore, these allegations
would constitute an exercise in futility and
loss of valuable time for the parties and the
Court. It is precisely against situations like
this that the doctrine of res judicata—and its
form of splitting of causes of action—seeks
to protect [ . . . ].
In view of the foregoing, the Court denies
the fourth amended motion for authorization
filed on February 9, 2017. Consequently, the
summonses issued in relation to the aforesaid
Fourth Amended Complaint are inoperative.
(Emphasis ours).
In the case before the CFI of Fajardo, the plaintiffs
included the same allegations as in the present case
on the dwellings of Mansiones de Hacienda Jiménez.

App.44a
Both there and here they state that they have “construction defects that vitiate the structural elements
of the dwellings.” In that complaint, for which the
Partial Judgment was issued, negligence is attributed
to the banking institutions for granting the financing
allegedly without fulfilling their duty to verify that
the property complies with all the requirements of
the law.
In view of the facts of which judicial notice is
taken, it must be concluded that in the instant case
the claim made is the same claim that has been resolved
by the Court of Fajardo. Dismissal of the abovecaptioned complaint is granted, since this Court is
precluded from granting relief since the facts of the
instant complaint are res judicata.
In view of the dismissal of the instant case, the
motions for change of venue to the CFI of Fajardo, as
requested by several defendants, are denied.
V. Judgment
For the above reasons, this Court denies the
motions for change of venue, dismisses the complaint
for failure to state a cause of action for which relief
may be granted, because it is res judicata, and renders
Judgment with respect to the defendants named Scotiabank de Puerto Rico; First Bank Puerto Rico (a/k/a
FirstBank Puerto Rico); Banco Popular de Puerto Rico;
Banco Santander Puerto Rico; Oriental Bank (a/k/a
Oriental Bank and Trust); DLJ Mortgage Capital, Inc.;
PRIH LLC; Rushmore Loan Management Services LLC;
Operating Partners, Co., LLC; TRM, LLC.; as well as
those unknown Insurance Companies A, B, C; Defendants D, E, F; Corporations G, H, I; Banking Institutions, Investors, Third Parties J, K, L.

App.45a
The plaintiffs are required to pay court costs,
expenses and $750.00 to each of the defendants named
as attorney fees for the frivolousness demonstrated
by the plaintiffs in filing this complaint when it was
already res judicata.
ORDERED TO BE ENTERED AND NOTIFIED.
In San Juan, Puerto Rico, on September 19, 2018.
/s/ Elisa A. Fumero Pérez
Superior Court Judge
====================================
CERTIFICATE OF TRANSLATOR # JF-2019-177
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation of the Spanish source, which I have performed
to the best of my ability. It consists of eleven (11) pages,
including this certification sheet, and contains no
changes or erasures.
The content of this translation is an Electronic
Notice and a Judgment [Re: Construction Defects] in
Commonwealth of Puerto Rico Civil Case No. SJ2017CV01870.
In Cambridge, Massachusetts, on June 10, 2019.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.46a
CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const. amend. 14, § 1
Sec. 1. [Citizens of the United States.] All persons
born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
Article 4, P.R. Civil Code, 31 L.P.R.A. § 4.
Acts contrary to law; renunciation of legal right
Acts executed contrary to the provisions of law
are void except when the law preserves their validity.
Rights granted by the laws may be renounced,
provided such renunciation be not contrary to law, to
public interest or public order, or prejudicial to the
interest of a third person.
38 U.S.C.S. § 3702 (d). Basic Entitlement
(d) Housing loans will be automatically guaranteed
under this chapter [38 USCS 44 3701 et seq.] only if
made (1) by any Federal land bank, national bank,
State bank, private bank, building and loan association,
insurance company, credit union, or mortgage and loan
company, that is subject to examination and supervision
by an agency of the United States or of any State, (2)
by any State, or (3) by any lender approved by the

App.47a
Secretary pursuant to standards established by the
Secretary. Any housing loan proposed to be made to a
veteran pursuant to this chapter [38 USCS 44 3701
et seq.] by any lender not of a class specified in the
preceding sentence may be guaranteed by the Secretary
if the Secretary finds that it is in accord otherwise
with the provisions of this chapter [38 USCS 44 3701
et seq.].
38 USCS § 3704. Restrictions on loans
(a) No loan for the purchase or construction of
residential property shall be financed through the
assistance of this chapter [38 USCS 44 3701 et seq.]
unless the property meets or exceeds minimum requirements for planning, construction, and general acceptability prescribed by the Secretary; however, this
subsection shall not apply to a loan for the purchase
of residential property on which construction is fully
completed more than one year before such loan is made.
(b) Subject to notice and opportunity for a hearing,
the Secretary may refuse to appraise any dwelling or
housing project owned, sponsored, or to be constructed
by any person identified with housing previously sold
to veterans under this chapter [38 USCS 44 3701 et
seq.] as to which substantial deficiencies have been
discovered, or as to which there has been a failure or
indicated inability to discharge contractual liabilities
to veterans, or as to which it is ascertained that the
type of contract of sale or the methods or practices
pursued in relation to the marketing of such properties
were unfair or unduly prejudicial to veteran purchasers.
The Secretary may also refuse to appraise any dwelling
or housing project owned, sponsored, or to be constructed by any person refused the benefits of participation

App.48a
under the National Housing Act pursuant to a determination of the Secretary of Housing and Urban Development.
(c)
(1) Except as provided in paragraph (2) of this
subsection, no loan for the purchase or construction
of residential property shall be financed through the
assistance of this chapter [38 USCS 44 3701 et seq.]
unless the veteran applicant, at the time that the
veteran applies for the loan, and also at the time that
the loan is closed, certifies in such form as the Secretary may require, that the veteran intends to occupy
the property as the veteran’s home. Except as provided in paragraph (2) of this subsection, no loan for
the repair, alteration, or improvement of residential
property shall be financed through the assistance of
the provisions of this chapter [38 USCS 44 3701 et
seq.] unless the veteran applicant, at the time that
the veteran applies to the lender for the loan, and
also at the time that the loan is closed, certifies, in
such form as may be required by the Secretary, that the
veteran occupies the property as the veteran’s home.
Notwithstanding the foregoing provisions of this subsection, in the case of a loan automatically guaranteed
under this chapter [38 USCS 44 3701 et seq.], the
veteran shall be required to make the certification
only at the time the loan is closed. For the purposes
of this chapter [38 USCS 44 3701 et seq.] the requirement that the veteran recipient of a guaranteed or
direct home loan must occupy or intend to occupy the
property as the veteran’s home means that the veteran
as of the date of the veteran’s certification actually
lives in the property personally as the veteran’s
residence or actually intends upon completion of the

App.49a
loan and acquisition of the dwelling unit to move into
the property personally within a reasonable time and
to utilize such property as the veteran’s residence.
Notwithstanding the foregoing requirements of this
subsection, the provisions for certification by the
veteran at the time the veteran applies for the loan
and at the time the loan is closed shall be considered
to be satisfied if the Secretary finds that (1) in the
case of a loan for repair, alteration, or improvement
the veteran in fact did occupy the property at such
times, or (2) in the case of a loan for construction or
purchase the veteran intended to occupy the property
as the veteran’s home at such times and the veteran
did in fact so occupy it when, or within a reasonable
time after, the loan was closed.
(2) In any case in which a veteran is in activeduty status as a member of the Armed Forces and is
unable to occupy a property because of such status,
the occupancy requirements of this chapter [38 USCS
44 3701 et seq.] shall be considered to be satisfied if—
(A) the spouse of the veteran occupies or intends
to occupy the property as a home and the
spouse makes the certification required by
paragraph (1) of this subsection; or
(B) a dependent child of the veteran occupies or
will occupy the property as a home and the
veteran’s attorney-in-fact or legal guardian
of the dependent child makes the certification
required by paragraph (1) of this subsection.
(d) Subject to notice and opportunity for a hearing,
whenever the Secretary finds with respect to guaranteed or insured loans that any lender or holder has
failed to maintain adequate loan accounting records,

App.50a
or to demonstrate proper ability to service loans adequately or to exercise proper credit judgment or has
willfully or negligently engaged in practices otherwise
detrimental to the interest of veterans or of the Government, the Secretary may refuse either temporarily or
permanently to guarantee or insure any loans made by
such lender or holder and may bar such lender or holder
from acquiring loans guaranteed or insured under this
chapter [38 USCS § 3701 et seq.]; however, the Secretary shall not refuse to pay a guaranty or insurance
claim on loans theretofore entered into in good faith
between a veteran and such lender. The Secretary may
also refuse either temporarily or permanently to guarantee or insure any loans made by a lender or holder
refused the benefits of participation under the National
Housing Act pursuant to a determination of the
Secretary of Housing and Urban Development.
(e) Any housing loan which is financed through
the assistance of this chapter and to which section
3714 of this chapter [38 USCS § 3714] applies shall
include a provision that the loan is immediately due
and payable upon transfer of the property securing such
loan to any transferee unless the acceptability of the
assumption of the loan is established pursuant to
such section 3714.
(f) A loan for the purchase or construction of new
residential property, the construction of which began
after the energy efficiency standards under section 109
of the Cranston-Gonzalez National Affordable Housing
Act (42 U.S.C. 12709), as amended by section 101(c)
of the Energy Policy Act of 1992, take effect, may not
be financed through the assistance of this chapter
unless the new residential property is constructed in
compliance with such standards.

App.51a
42 U.S.C.S. § 1441.
Congressional declaration of national housing policy
The Congress hereby declares that the general
welfare and security of the Nation and the health and
living standards of its people require housing production and related community development sufficient to
remedy the serious housing shortage, the elimination
of substandard and other inadequate housing through
the clearance of slums and blighted areas, and the
realization as soon as feasible of the goal of a decent
home and a suitable living environment for every American family, thus contributing to the development and
redevelopment of communities and to the advancement of the growth, wealth, and security of the Nation.
The Congress further declares that such production is
necessary to enable the housing industry to make its
full contribution toward an economy of maximum
employment, production, and purchasing power. The
policy to be followed in attaining the national housing
objective hereby established shall be:
(1) private enterprise shall be encouraged to
serve as large a part of the total need as it can;
(2) governmental assistance shall be utilized
where feasible to enable private enterprise
to serve more of the total need; (3) appropriate local public bodies shall be encouraged
and assisted to undertake positive programs
of encouraging and assisting the development of well-planned, integrated residential
neighborhoods, the development and redevelopment of communities, and the production,
at lower costs, of housing of sound standards
of design, construction, livability, and size for
adequate family life; (4) governmental assis-

App.52a
tance to eliminate substandard and other
inadequate housing through the clearance of
slums and blighted areas, to facilitate community development and redevelopment, and to
provide adequate housing for urban and
rural nonfarm families with incomes so low
that they are not being decently housed in
new or existing housing shall be extended to
those localities which estimate their own
needs and demonstrate that these needs are
not being met through reliance solely upon
private enterprise, and without such aid; and
(5) governmental assistance for decent, safe,
and sanitary farm dwellings and related
facilities shall be extended where the farm
owner demonstrates that he lacks sufficient
resources to provide such housing on his
own account and is unable to secure necessary credit for such housing from other
sources on terms and conditions which he
could reasonably be expected to fulfill. The
Department of Housing and Urban Development, and any other departments or agencies
of the Federal Government having powers,
functions, or duties with respect to housing,
shall exercise their powers, functions, and
duties under this or any other law, consistently with the national housing policy
declared by this Act and in such manner as
will facilitate sustained progress in attaining
the national housing objective hereby established, and in such manner as will encourage
and assist (1) the production of housing of
sound standards of design, construction,
livability, and size for adequate family life;

App.53a
(2) the reduction of the costs of housing
without sacrifice of such sound standards;
(3) the use of new designs, materials, techniques, and methods in residential construction, the use of standardized dimensions
and methods of assembly of home-building
materials and equipment, and the increase
of efficiency in residential construction and
maintenance; (4) the development of wellplanned, integrated, residential neighborhoods
and the development and redevelopment of
communities; and (5) the stabilization of the
housing industry at a high annual volume
of residential construction.
7 C.F.R. § 3555.1. Applicability
This part sets forth policies for the Single Family
Housing Guaranteed Loan Program (SFHGLP) administered by USDA Rural Development. It
addresses the requirements of section 502(h) of
the Housing Act of 1949, as amended, and includes
policies regarding originating, servicing, holding
and liquidating SFHGLP loans. Any provision
regarding the expenditure of funds under this part
is contingent upon the availability of funds.
7 C.F.R. 3555.5. Environmental requirements
(a) Policy. Rural Development will consider environmental quality, economic, social, and other relevant
factors in program development and decision-making
processes. Rural Development will take into account
potential environmental impacts of proposed projects
by working with applicants, other Federal agencies,
American Indian tribes, State and local governments,

App.54a
and interested citizens and organizations in order to
formulate actions that advance the program’s goals
in a manner that will protect environmental quality.
(b) Regulatory references. Loan processing or
servicing actions taken under this part must comply
with the environmental review requirements in accordance with 7 CFR part 1970, and 7 CFR part 1924,
which addresses lead-based paint.
(c) Agency responsibilities. Rural Development
is responsible for compliance with all applicable environmental regulations and statutes.
(d) Lender and loan applicant responsibilities.
(1) Lenders must use due diligence in regard to
potential environmental hazards to ensure
the property is decent, safe and sanitary
and of sufficient value to adequately secure
the loan. The level of due diligence review to
determine potential environmental hazards
must be equivalent to the standards established by Fannie Mae, Freddie Mac, FHA,
or the VA.
(2) Mortgage loan transactions will be subject
to the requirements of the 1994 National
Flood Insurance Reform Act to determine if
the dwelling is located in a Special Flood
Hazard Area (SFHA).
(3) On an as needed basis, lenders and loan
applicants will assist Rural Development in
obtaining such information as Rural Development needs to complete its environmental
review and to cooperate in the resolution of
environmental problems.

App.55a
(4) Lenders will become familiar with Agency
environmental requirements, so they can
advise applicants and reduce the probability
of unacceptable applications being submitted
to Rural Development.
(5) The lender must comply with Federally mandated flood insurance purchase requirements.
Existing dwellings in a SFHA are not eligible
under the SFHGLP unless flood insurance
through the FEMA National Flood Insurance Program (NFIP) is available for the
community and flood insurance, whether
NFIP, “write your own,” or private flood
insurance, is purchased by the borrower.
The lender will require the borrower to
obtain, and maintain for the term of the
mortgage, flood insurance for any property
located in a SFHA, listing the lender as a
loss payee. Purchase of existing structures
within the federally regulated floodplain will
not require consideration of alternatives to
avoid adverse effects and incompatible development in floodplains;
(6) The borrower must obtain, and continuously
maintain for the life of the mortgage, flood
insurance on the security property in an
amount sufficient to protect the property
securing the guaranteed loan. Flood insurance
policies must be issued under the NFIP, or
by a licensed property and casualty insurance
company authorized to participate in NFIP’’s
“Write Your Own” program or private flood
insurance policy, as approved by the lender.
Lenders are required to accept private flood

App.56a
insurance policies, when purchased by a
borrower, that meet the requirements of 42
U.S.C. 4012a(b)(1)(A). Lenders remain responsible to ensure a private flood insurance policy
meets the requirements of 42 U.S.C. 4012a
(b)(1)(A).
(7) Rural Development will not guarantee loans
for new or proposed homes in an SFHA unless
the lender obtains a final Letter of Map
Amendment (LOMA) or a final Letter of Map
Revision (LOMR) that removes the property
from the SFHA, or performs an alternatives
analysis in compliance with the Agencies
National Environmental Policy Act regulation and obtains a FEMA elevation certificate
that shows that the lowest floor (including
basement) of the dwelling and all related
building improvements are built at or above
the 100-year flood plain elevation in compliance with the NFIP. Statutory Authority: 5
USCS § 301
7 C.F.R. 3555.201. Site requirements
(a) Rural areas. Rural Development will only guarantee loans made in rural areas designated as rural
by Rural Development. However, if a rural area designation is changed to nonrural:
(1) Existing conditional commitments in the
former rural area will be honored;
(2) A supplemental loan may be made in accordance with § 3555.101 in conjunction with a
transfer and assumption of a guaranteed loan;

App.57a
(3) Loan requests where the application and
purchase contract was complete prior to the
area designation change may be approved;
and
(4) REO property sales and transfers with
assumption may be processed.
(b) Site standards. Sites must be modest and developed in accordance with any standards imposed by a
State or local government and must meet all of the
following requirements.
(1) The site size must be typical for the area.
(2) The site must not include income-producing
land or buildings to be used principally for
income-producing purposes. Vacant land without eligible residential improvements, or property used primarily for agriculture, farming
or commercial enterprise is ineligible for a
loan guarantee.
(3) The site must be contiguous to and have
direct access from a street, road, or driveway. Streets and roads must be hard surfaced
or all weather surfaced and legally enforceable arrangements must be in place to ensure
that needed maintenance will be provided.
(4) The site must be supported by adequate
utilities and water and wastewater disposal
systems. Certain water and wastewater systems that are privately-owned may be
acceptable if the lender determines that the
systems are adequate, safe, compliant with
applicable codes and requirements, and the
cost or feasibility to connect to a public or

App.58a
community system is not reasonable. Certain
community-owned water and wastewater
systems may be acceptable if the lender
determines that the systems are adequate,
safe, and compliance with applicable codes
and requirements. The Agency may require
inspections on individual, central, or privatelyowned and operated water or waste systems.
7 C.F.R. § 3555.202 (b)(4). Dwelling requirements
(a) New dwellings. New dwellings must be constructed in accordance with certified plans and specifications, and must meet or exceed the International
Energy Conservation Code (IECC) in effect at the time
of construction. The lender must obtain and retain
evidence of construction costs, inspection reports, certifications, and builder warranties acceptable to Rural
Development.
(b) Existing dwellings. Existing dwellings are
considered to meet the following criteria when inspected
and certified as meeting HUD requirements for one-tofour unit dwellings in accordance with Agency guidelines:
(1) Be structurally sound;
(2) Be functionally adequate;
(3) Be in good repair, or to be placed in good
repair with loan funds; and
(4) Have adequate and safe electrical, heating,
plumbing, water, and wastewater disposal
systems.
(c) Escrow account for exterior or interior development. This paragraph does not apply if the devel-

App.59a
opment is related to a “combination construction and
permanent loan” under § 3555.101(c). If a dwelling is
complete with the exception of interior or exterior development work, Rural Development may issue the Loan
Note Guarantee on the loan if the following conditions
are met:
(1) The incomplete work does not affect the
habitability of the dwelling, nor the health
or safety of the housing occupants.
(2) The cost of any remaining interior or exterior
work is not greater than 10 percent of the
final loan amount.
(3) An escrow account is funded in an amount
sufficient to assure the completion of the
remaining work. This figure must be at least
100 percent of the cost of completion but
may be higher if the lender determines a
higher amount is needed.
(4) The builder or a licensed contractor has executed a contract providing for completion of
the planned development within 180 days of
loan closing. If the borrower will be completing the planned development on an existing
dwelling without the services of a contractor,
the requirement for an executed contract is
waived when all of the following conditions
are met:
(i)

The estimated cost to complete the work
is less than 10 percent of the total loan
amount;

(ii) The escrow amount is less than or equal
to $ 10,000; and

App.60a
(iii) The lender has determined the borrower
has the knowledge and skills necessary
to complete the work.
(5) The lender may release escrowed funds only
after obtaining a final inspection report acknowledged by the borrower and indicating all
planned development has been satisfactorily completed.
(6) The lender remains responsible to ensure a
final inspection is performed and required
repairs are completed.
(7) The settlement statement reflects the
amounts escrowed.
24 C.F.R. 5.703(a).
Physical condition standards for HUD housing that
is decent, safe, sanitary and in good repair (DSS/GR)
HUD housing must be decent, safe, sanitary and
in good repair. Owners of housing described in § 5.
701(a), mortgagors of housing described in § 5.701(b),
and PHAs and other entities approved by HUD
owning housing described in § 5.701(c), must
maintain such housing in a manner that meets the
physical condition standards set forth in this section
in order to be considered decent, safe, sanitary and in
good repair. These standards address the major areas
of the HUD housing: the site; the building exterior;
the building systems; the dwelling units; the common
areas; and health and safety considerations.
(a) Site. The site components, such as fencing and
retaining walls, grounds, lighting, mailboxes
/project signs, parking lots/driveways, play
areas and equipment, refuse disposal, roads,

App.61a
storm drainage and walkways must be free of
health and safety hazards and be in good
repair. The site must not be subject to material adverse conditions, such as abandoned
vehicles, dangerous walks or steps, poor drainage, septic tank back-ups, sewer hazards,
excess accumulations of trash, vermin or
rodent infestation or fire hazards.
24 C.F.R. 200.926d(3)(i)
Construction requirements
(3) Site conditions.
(i) The property shall be free of those foreseeable
hazards and adverse conditions which may affect the
health and safety of occupants or the structural
soundness of the improvements, or which may impair
the customary use and enjoyment of the property. The
hazards include toxic chemicals, radioactive materials,
other pollution, hazardous activities, potential damage
from soil or other differential ground movements,
ground water, inadequate surface drainage, flood, erosion, or other hazards located on or off site. The site
must meet the standards set forth in 24 CFR part 51,
and HUD Handbook 4910.1, section 606 for termite
and decay protection.
24 C.F.R. 200.926d(f)(1)
Construction requirements
(f) Water supply systems—
(1) General.
(i) Each living unit shall be provided with a
continuing and sufficient supply of safe water under

App.62a
adequate pressure and of appropriate quality for all
household uses. Newly constructed residential property
for which a building permit has been applied for on
or after June 19, 1988 from the competent authority
with jurisdiction in this matter shall have lead-free
water piping. For purposes of these standards, water
piping is “lead free” if it uses solders and flux containing not more than 0.2 percent lead and pipes and
pipe fittings containing not more than 8.0 percent
lead. This system shall not impair the function or
durability of the plumbing system or attachments.
(ii) The chemical and bacteriological standards of
the local health authority shall apply. In the absence of
such standards, those of the appropriate State agency
38 C.F.R. 36.4347(c).
Lender appraisal processing program
VA minimum property requirements. Lenders are
responsible for determining that the property meets
VA minimum property requirements. The separate
instructions issued by the Secretary will set forth the
lender’s ability to adjust, remove, or alter the fee
appraiser’s or fee compliance inspector’s recommendations concerning VA minimum property requirements.
Condominiums, planned-unit developments and
leasehold estates must have been determined
acceptable by VA. A condominium or planned-unit
development which is acceptable to the Department
of Housing and Urban Development or the Department of Agriculture may also be acceptable to VA.

App.63a
PETITION FOR WRIT OF CERTIORARI
(FILED: MAY 22, 2019)
IN THE SUPREME COURT OF PUERTO RICO
________________________
LUIS A. RAMOS GONZÁLEZ, ET AL.,

Petitioners,
v.
SCOTIABANK DE PUERTO RICO, ET AL.,

Respondent.

________________________
No. KLAN-2018-01350

Civil No.: SJ2017CV01870
On Appeal from the Court of First Instance
Judicial Center of San Juan Superior Court
Re: Absolute Nullity of Mortgage Financing
Agreement For Violations of Federal
Regulations, Etc.
{ TABLE OF CONTENTS AND

TABLE OF AUTHORITIES OMITTED.}

TO THE HONORABLE SUPREME COURT OF PUERTO RICO:
COME NOW the petitioners, through the undersigned counsel, and they most respectfully STATE,
ALLEGE AND PETITION:
The Supreme Court of Puerto Rico has jurisdiction
and venue to hear the above-captioned Petition for

App.64a

Certiorari under Article V of the Constitution of the

Commonwealth of Puerto Rico; Articles 3.001, 3.002
(d) of the Judiciary Act of the Commonwealth of Puerto
Rico of 2003, Law 201 of August 22, 2003, 4 L.P.R.A.
§§ 24r, 24s; and Rule 20 of the Rules of the Supreme
Court of Puerto Rico (2011), 4 L.P.R.A. Ap. XXI-A,
r.20.
In addition, Rule 52.2 (b) of the Rules of Civil
Procedure, 32 L.P.R.A. Ap. V, R. 52.2 (b), and Rule 84
of the Rules of the Court of Appeals, 4 L.P.R.A. Ap.
XXII-B, R. 84, are applicable.
II.

Discussion of Legal Basis for Jurisdiction

Article 3.002 (d) of the Judiciary Act of the Commonwealth of Puerto Rico of 2003, 4 L.P.R.A. § 24 s
(d), grants the Supreme Court the authority to review,
through a Writ of Certiorari, judgments or resolutions
issued by the Court of Appeals of Puerto Rico within
the statutory time limit of thirty (30) days, counted
from the date on which a copy of the notice of the
appealed judgment is filed in the case record. Rule
52.2 (b) of the Rules of Civil Procedure of 2009, 32
L.P.R.A. Ap. V, R. 52.2 (b), and Rule 20 (a) (1) of the
Rules of the Supreme Court of Puerto Rico (2011), 4
L.P.R.A. Ap. XXIS-A, R. 20 (a) (1), provide that the
petitions for Certiorari to review a judgment or
resolution of the Court of Appeals must be filed within
the statutory time limit of thirty (30) days from the
date on which a copy of the notice of the appealed
judgment is filed in the case record. This time period
is tolled by timely filing of a motion for reconsideration—Rule 52.2 (F) of the Rules of Civil Procedure of
2009, 32 L.P.R.A. Ap. V, R. 52.2 (F); Rule 84 (A) of
the Rules of the Court of Appeals, 4 L.P.R.A. XXII-B, R.

App.65a

84 (A), and Rule 20 (C) of the Rules of the Supreme
Court of Puerto Rico (2011), 4 L.P.R.A. Ap. XXI-A, R.
20 (C).
On December 10, 2018, the petitioners filed an
appeal with the Court of Appeals [Ap. 50, page 3136ff.].
On March 27, 2019, the Court of Appeals notified the
Judgment of March 26, 2019, which affirmed the
judgment of dismissal by the Court of First Instance
[Ap. 60, pp. 3560-3572]. Within the statutory time limit,
on April 11, 2019, the petitioners filed a Motion for
Reconsideration [Ap. 61, pp. 3573-3583], which was
DENIED through a resolution issued on April 22,
2019, notified on April 22, 2019 [Ap. 64, pp. 35943597].
Consequently, the thirty (30)-day time limit to
file this appeal began to elapse on April 22, 2019 and
ended on May 22, 2019. Since this petition for Certiorari
was submitted to this Honorable Supreme Court on or
before May 22, 2019, the Court acquired jurisdiction
to hear the aforesaid petition for Certiorari since it
was filed within its statutory time limit.
III. Resolution for Which Review is Requested (CA)
The Petitioners are filing for review of the resolution by the Court of Appeals, Panel XI, composed of
Chief Judge Cintrón Cintrón, Judge Surén Fuentes
and Judge Cortés González, issued on March 26, 2019,
in the case of Luis A. Ramos González, et al. v.
Scotiabank de Puerto Rico, et al., Civil No. KLAN2018-01350, the notice of which was filed in the case
record on March 27, 2019 [Ap. 60, pp. 3561-3572]; the
aforesaid resolution affirmed the judgment of dismissal
issued by the Court of First Instance.

App.66a
On April 11, 2019, the petitioners timely filed a
Motion for Reconsideration [Ap. 61, pp. 3573-3583],
which was DENIED through a resolution issued on
April 22, 2019, notified on April 22, 2019 [Ap. 64, pp.
3594-3597].
IV. Resolution of the Court of First Instance
The resolution was the Judgment of Dismissal of
September 19, 2018, issued by the Court of First
Instance of San Juan, in the case of Luis A. Ramos
González, et. al. v. Scotiabank de Puerto Rico, et al.,
Civil Number SJ2017CV01870, by the Honorable Judge
Elisa A. Fumero Pérez. A copy of the notice of said
judgment was filed in the case record of the abovecaptioned case on September 21, 2018 [Ap. 36, pp.
2977-2987].
On October 5, 2018, the appellants timely filed a
Motion for Reconsideration [Ap. 38, pp. 2997-3041],
which was DENIED through a resolution issued on
November 7, 2018, with a copy of its notice filed in
the case record on November 8, 2018 [Ap. 49, pp. 31323135].
That date of November 8, 2018 was the start of
the statutory time period to file an appeal with the
Honorable Court of Appeals, and such an appeal was
filed in a timely manner on December 10, 2018, since
the 30th fell on a weekend. Currently, there is no other
appeal sub judice related to the case from the lower
court.

App.67a
V.

Faithful and Concise Account of Procedural
Events And Relevant Material Facts of The Case

To begin with, we must underscore that the facts
giving rise to the above-captioned case occurred at
the stage of the financing process for the mortgage
loans that allowed the purchases of the residential
properties in the Mansiones Hacienda Jiménez urban
project. As is known, during the mortgage financing
process, banks carry out specific functions and duties
before executing mortgage loan agreements. In particular, federal law imposes regulations (i.e. HUD,
FHA, VA) that banks must comply with when granting
mortgage loans whenever the mortgage notes, which
are generated and secured by mortgages on real
property, will be subject to sale on the secondary
mortgage market. The real properties securing the
mortgage notes must comply with the minimum specifications imposed by the law (HUD, FHA, VA) to be
able to execute the mortgage loan agreements. More
specifically, in Puerto Rico, HUD actually delegates,
to banks, several of its review functions for qualification
of real properties during the mortgage loan process.
Real property qualification requirements imposed
by federal regulations in order to grant mortgage
loans are vital to the trading of the negotiable instruments (mortgage notes) on the secondary mortgage
market. Note that because of the existence of these
federal regulations regarding the qualification requirements of real properties securing mortgage notes,
secondary market investors trust in the certainty provided to them by the law, and they make investments
in said market based on that certainty. Investors
assume that the real properties securing mortgage
notes in circulation are properties that qualified as

App.68a
acceptable properties in accordance with federal regulations.
In addition, these qualification requirements of
real properties serve other essential purposes for
society. First, the qualification requirements ensure
that consumers of real estate, both residential and
commercial, acquire suitable properties that ensure
their safety, health and use and enjoyment. Secondly,
real properties that meet these qualification requirements add value to the economy and strengthen it
since they are durable, functional and suitable structures that will allow several financing and refinancing cycles which will ultimately result in an increase
in the circulation of negotiable instruments on the
secondary market.
Thus, before approving mortgage financing for
the sale of real property, banks determine the eligibility
of both the buyers (repayment ability, loan-to-value
ratio, credit history, inter alia) and the real properties
being sold (compliance with minimum specifications
under HUD/FHA/VA federal regulations, appraisal
findings, survey findings, issuance of certifications by
regulatory government agencies, inter alia).
If the buyers and the real properties satisfy all
the qualification parameters and requirements the
banks may execute mortgage loan agreements with
respect to such properties. Conversely, in relevant
part, if a real property does not satisfy the qualification
requirements then the banks cannot execute the
mortgage loan agreement because it would be in violation of the law (federal regulations) and the agree-

App.69a
ment would therefore be null and void (absolute
nullity).1
Essentially, the case at hand concerns a PETITION
FOR AB INITIO NULLITY OF MORTGAGE LOAN
AGREEMENTS AND MORTGAGES on the grounds of
their execution in violation of federal regulations,
since they were established on unqualifying (“UNACCEPTABLE SITE”) real properties, inter alia [Ap.
1, pp. 1-1720]. Thus, the question of law before us is:
1 Article 4 of the Civil Code of Puerto Rico, 1930, provides, in
relevant part, that “acts executed in violation of the law are null
and void.”
With respect to the Housing Act of 1949, in the case of

Pennsylvia [sic] v. Lynn, 501 F.2d 848, 854-855 (1974), it was stated
that:

The most basic statement of congressional housing
policy derives from the Housing Act of 1949, which
dedicates the nation to “the realization as soon as
feasible of the goal of a decent home and a suitable
living environment for every American family.”
Section 2, as amended, 42 U.S.C. § 1441. In addition
to setting the national goal, that Act specifies certain
policies to be followed in its attainment, and imposes
the following obligations on the executive agencies:
The Department of Housing and Urban Development, and any other departments or agencies of the
Federal Government having powers, functions, or
duties with respect to housing, shall exercise their
powers, functions, and duties under this or any other
law, consistently with the national housing policy
declared by this Act and in such manner as will
facilitate progress in attaining the national housing
objective hereby established . . . “[t]his statute is not
precatory; HUD is obliged to follow these policies.
Action taken without consideration of them, or in
conflict with them, will not stand . . .

App.70a
Are the mortgage loan agreements and mortgages
of the real properties in Mansiones Hacienda Jiménez
null and void ab initio for being executed in violation
of federal regulations, infra, which, among others,
classify the aforesaid real properties as “UNACCEPTABLE SITES”? Yes.2
After the procedures of the dispositive motions,
oppositions, the answer to the complaint and the
respective notices [Ap. 5-35, pp. 1738-2976], the Court
of First Instance issued a judgment dismissing the
complaint on two grounds: for failing to state a cause
of action for which relief may be granted [C.P. Rule
10.2(5)] and because the cause had already been
2 Similarly, the Single Family Housing Guaranteed Loan Program
(SFHGLP) is managed by USDA Rural Development and is
codified in 7 C.F.R. § 3555.1. These regulations advance the
public policy of the Department of Agriculture typified in 42
U.S.C. § 1471. Regarding the environmental requirements established in 7 C.F.R. § 3555.5(d) (1) we should note the following:
Lenders must use due diligence in regard to potential
environmental hazards to ensure the property is
decent, safe and sanitary and of sufficient value to
adequately secure the loan. The level of due diligence
review to determine potential environmental hazards
must be equivalent to the standards established by
Fannie Mae, Freddie Mac, FHA, or the VA.
7 C.F.R. § 3555.202 requires that new housing “must be
constructed in accordance with certified plans and specifications,
. . . . ”Likewise, 38 U.S.C. § 3704 restricts the ability to
grant loans. “No loan for the purchase or construction
of residential property shall be financed through the
assistance of this chapter unless the property meets
or exceeds minimum requirements for planning
construction, and general acceptability prescribed by
the Secretary;. . . . ”

App.71a
adjudicated [doctrine of res judicata—Gil Freddy
case N3CI-2006-00751].3 As we will see, the grounds
are without merit and the judicial act of the judgment
of dismissal violated due process as granted in the
U.S. Constitution.4 The abdication of the duty to
3 We should mention here that the question of law of the abovecaptioned case is different from the question of law in the Gil
Freddy Mojica case, which was: according to the case law established in the Chase Manhattan Bank case, were the defendant
banks therein liable for the construction defects of the
Mansiones Hacienda Jiménez Project? However, that question
of law in the case of Gil Freddy Mojica was not adjudicated
because under Civil Procedure Rule 10.2 (5), the CFI of Fajardo
dismissed Gil Freddy’s complaint against the banks because
there were not enough facts to adduce a cause of action for
which relief could be granted. Ergo, the matter was not adjudicated.
Also note that the Gil Fredy Mojica case concerns the
construction defects of the dwellings of Mansiones Hacienda
Jiménez while the above-captioned Luis Ramos case concerns
the ab initio nullity of the mortgage loan agreements executed
for the acquisition of the real properties in Mansiones Hacienda
Jiménez on the grounds of violation of federal regulations.
4 Note that the Fourteenth Amendment of the U.S. Constitution provides, inter alia: “nor shall any State deprive any person
of life, liberty, or property, without due process of law . . . ” The
U.S. Supreme Court has affirmed that:
“[t]he prohibitions of the Fourteenth Amendment are directed to the States, and they are, to a degree, restrictions of State
power. It is these which Congress is empowered to enforce, and
to enforce against State action, however put forth, whether that
action be executive, legislative, or judicial.” [Emphasis Supplied],
Ex Parte Virginia, 100 U.S. 339, 346 (1879).
In addition, the U.S. Supreme Court has stated that:
While this Court has not attempted to define with exactness the
liberty thus guaranteed, the term has received much consideration
and some of the included things have been definitely stated.

App.72a
declare ab initio nullity of the mortgage loan agreements and mortgages deprived the petitioners of their
right to property. Inter alia, it deprived them of the
right to property with respect to their loan-to-value
ratio without due process. Such deprivation of the
right to property as it relates to their loan-to-value
ratio results in a chain of deprivations of other rights
without due process. It prevents them from purchasing
a new suitable and sanitary dwelling that is free
from contamination and has a wastewater disposal
system. It deprives them of their right to freedom by
forcing them to stay in the dwellings of Mansiones
Hacienda Jiménez, which are unsanitary, are plagued
by contamination and lack a wastewater disposal
system (the petitioners live amidst human excrement
that runs along the carports of the dwellings and the
sidewalks and streets of the Mansiones Hacienda
Jiménez project due to the constant overflows of the
septic tanks, illegally built with one in each dwelling,
of Mansiones Hacienda Jiménez). It deprives them of
the right to property; to the use and enjoyment of a
dwelling; to disposing of said dwelling through sale; to
accrue and use the equity of the dwelling. It deprives
them of the right to achieve happiness, inter alia.
After the Judgment of dismissal of September 19,
2018, with a copy of its notice filed in the case record
on September 21, 2018 [Ap. 36, pp. 2977-2987], on OctWithout doubt, it denotes not merely freedom from bodily restraint,
but also the right of the individual to contract, to engage in any
of the common occupations of life, to acquire useful knowledge,
to marry, establish a home and bring up children, to worship
God according to the dictates of his own conscience, and generally to enjoy those privileges long recognized at common law as
essential to the orderly pursuit of happiness by free men. Meyer
v. Nebraska, 262 U.S. 390, 399 (1923).

App.73a
ober 5, 2018, a Motion for Reconsideration was filed
[Ap. 38, pp. 2997-3041]. After the Oppositions to the
Motion for Reconsideration [Ap. 40-47, pp. 3045-3123],
on November 7, 2018, notified on November 8, 2018,
the Court of First Instance issued a Resolution
DENYING the Motion for Reconsideration [Ap. 49,
pp. 3132-3135].
In view of this, on December 10, 2018, the petitioners filed an appeal with the Court of Appeals [Ap.
50, page 3136ff.]. On March 27, 2019, the Court of
Appeals notified the Judgment of March 26, 2019,
which affirmed the judgment of dismissal by the Court
of First Instance [Ap. 60, pp. 35603572]. Within the
statutory time limit, on April 11, 2019, the petitioners
filed a Motion for Reconsideration [Ap. 61, pp. 35733583], which was DENIED through a Resolution issued
on April 22, 2019, notified on April 22, 2019 [Ap. 64,
pp. 35943597]. On the basis of the foregoing, we most
respectfully make the following assignment of error.
VI. Assignment of Error
THE COURT OF APPEALS ERRED BY
AFFIRMING THE JUDGMENT DISMISSING THE COMPLAINT ISSUED BY THE
COURT OF FIRST INSTANCE WITHOUT
DUE PROCESS. BOTH THE COURT OF
APPEALS AND THE COURT OF FIRST
INSTANCE ABDICATED THEIR DUTY
TO DECLARE AB INITIO NULLITY OF
THE MORTGAGE LOAN AGREEMENTS
AND MORTGAGES WHICH WERE EXECUTED IN VIOLATION OF FEDERAL
REGULATIONS. THE JUDICIAL ACTS OF
THE LOWER COURTS CONSTITUTE A

App.74a
DEPRIVATION OF THE RIGHT TO PROPERTY WITHOUT DUE PROCESS. FURTHERMORE, IT WAS INAPPROPRIATE TO
APPLY RULE 10.2(5) OF THE RULES OF
CIVIL PROCEDURE AND THE DOCTRINE
OF RES JUDICATA, AND IT WAS ALSO
INAPPROPRIATE TO IMPOSE ATTORNEY
FEES.
VII. Discussion of Assignment of Error
The Court of Appeals erred by affirming the judgment dismissing the complaint issued by the Court of
First Instance without due process. Both the Court of
Appeals and the Court of First Instance abdicated
their duty to declare ab initio nullity of mortgage
loan agreements and mortgages executed in violation
of federal regulations. The judicial acts of the lower
courts constitute a deprivation of the right to property
without due process. Furthermore, it was inappropriate
to apply Civil Procedure Rule 10.2(5) and the doctrine
of res judicata.
It is well known that absolute nullity is a defect of
a contract which prevents it, ípso jure, from producing
its effects. It is one of several types of ineffectiveness
of contracts and can be caused by the following: (1)
violation of a precept contained in a prohibitive or
peremptory rule; (2) where any of the essential
elements for the formation of a contract is missing;2[sic] and (3) where the legally prescribed form
for a contract is omitted if such form is ad solemn-

itatem.

Pursuant to the above, the qualification requirements for real properties—in accordance with federal
regulations (U.S. Department of Housing and Urban

App.75a
Development (HUD)), particularly any specific requirements that are imposed when said real properties have
a septic system for wastewater disposal—for execution
of a mortgage loan agreement and mortgage are, in
relevant part:
1.

HUD Handbook 4155.2, Chapter 4.1.d Verification of Compliance With Property Requirements (P. 4-3), provides: “As the on-site representative for the lender, the appraiser provides preliminary verification that a property meets the General Acceptability Standards, which include the Minimum Property
Requirements (MPR) or Minimum Property
Standards (MPS)”.

2.

HUD Handbook 4155.2, Chapter 4.1.e Lender
Responsibility for Resolution of Property
Eligibility and Accuracy of Appraised Value
(P. 4-3), establishes that: “Lenders are responsible for properly reviewing appraisals,”

inter alia.

3.

HUD Handbook 4155.2, Chapter 4.4.g FHA
Policy on Appraisal and Inspection Fees (P.
4-25), provides that: “The lender is responsible for collecting and promptly paying appraisers and inspectors.”

4.

HUD Handbook 4000.1, Chapter II.D.3.q Onsite Sewage Disposal Systems (P. 505), provides:

App.76a
“i.

Definition
An Onsite Sewage Disposal System refers
to wastewater systems designed to treat
and dispose of effluent on the same
Property that produces the wastewater.
ii. Required Analysis and Reporting
The Appraiser must note the deficiency
of MPR or MPS and notify the Mortgagee
if the Property is not served by an offsite sewer system and any living unit is
not provided with an Onsite Sewage
Disposal System adequate to dispose of
all domestic wastes in a manner that
will not create a nuisance, or in any
way endanger the public health.
The Appraiser must visually inspect the
Onsite Sewage Disposal System and its
surrounding area. The Appraiser must
require an inspection to ensure that the
system is in proper working order if
there are readily observable signs of
system failure. The Appraiser must report on the availability of public sewer
to the site.
The Appraiser must note the deficiency
of MPR or MPS and notify the Mortgagee
if the Appraiser has evidence that the
Onsite Sewage Disposal System is not
sufficient.”

5.

HUD Handbook 4000.1, Chapter 3-6.A.3 Soil
Contamination (P. 3-9), provides:
“a. Septic and Sewage

App.77a
If a septic system is part of the subject
property, the appraiser must determine
whether the area is free of conditions
that adversely affect the operation of
the system. Consider the following:
the type of system
topography
depth to ground water
soil permeability
the type of soil to a depth several feet
below the surface
If in doubt about the operation of sewage
disposal systems in the neighborhood,
mark “YES” in VC-2, condition the
appraisal on further inspection and
prepare the appraisal “as-repaired” subject to satisfaction of the condition.
The lender will contact the local health
authority or a professional to determine
the viability of the system.” [Bold and
underlining ours.]
6.

HUD Handbook 4000.1, Chapter 3-6.A.4.a
Drainage-Individual Water Supply and
Sewage Disposal Systems (P. 3-10, 3-11),
provides, in relevant part:
“If water and sewer systems are not
connected to public systems, the water
well and/or septic system must meet the
requirements of the local health authority
with jurisdiction. If the local authority
does not have specific requirements, the
maximum contaminant levels established
by the Environmental Protection Agency

App.78a
(EPA) will apply. If the authority is
unable to perform the water quality
analysis in a timely manner, a private
commercial testing laboratory or a
licensed sanitary engineer acceptable to
the authority may take and test water
samples.
Each living unit must be provided with a
sewage disposal system that is adequate
to dispose of all domestic wastes and
does not create a nuisance or in any
way endanger the public health.” [Bold
ours.]
7.

HUD Handbook 4150.2, Chapter 3, Property
Analysis, General Acceptability Criteria 3-6
A.3,4,5; Water Supply and Sewage Disposal
Systems 3-9a; Unacceptable Conditions 310b. In relevant part:
(The lender, who is ultimately responsible for
rejecting the site, relies on the appraiser’s
site analysis to make this resolution. Guidelines for determining site acceptability follow.
The appraiser is required to note only those
readily observable conditions.
A.

Unacceptable Sites
FHA guidelines require that a site be
rejected if the property being appraised
is subject to hazards, environmental
contaminants, noxious odors, offensive
sights or excessive noises to the point of
endangering the physical improvements
or affecting the livability of the property,

App.79a
its marketability or the health and safety
of its occupants.
Rejection may also be appropriate if the
future economic life of the property is
shortened by obvious and compelling
pressure to a higher use, making a longterm mortgage impractical.
These considerations for rejection apply
on a case-by-case basis, taking into
account the needs and desires of the
purchaser. For example, a site should
not be considered unacceptable simply
because it abuts a commercial use; some
commercial uses may not appeal to a
specific market segment while other
commercial uses may.
If the condition is clearly a health and
safety violation, reject the appraisal and
return it to the lender. If there is any
doubt as to the severity, report the condition and submit the completed report.
The lender must clear the condition and
may require an inspection or reject the
property. For those conditions that cannot be repaired, such as site factors, the
appraised value is based upon the existing conditions.
8.

HUD Handbook 4165.1, Chapter 1-5 Submission of Case Binder-Direct Endorsement (DE)
Cases (P. 1-4) provides: . . . “The submitting
lender has the duty to ensure all documentation is appropriate and conforms to the
requirements of his handbook. The lender

App.80a
must assemble the processing and closing
documents and place them in the case binder
in the order depicted in Table 1.1, Binder
Assembly.” In relevant part:
Left Side of Binder

Right Side of Binder

Mortgage Assurance of Screen print of Insurance
Completion, Form HUD- Application Screen from
92300.
FHA Connection showing
that the insurance information was accepted by
FHA Connection. Automated Underwriting Feedback Certificate/Findings
Report.
Compliance Inspection
Report, Form HUD-92051
or other applicable documentation AND evidence
of satisfaction of valuation
conditions (as applicable).

Request for Late
Endorsement* in
compliance with Chapter 3
of this handbook.

Wood Destroying Insect
Infestation Report, Form
NPCA-1 or State
mandated infestation
report (as applicable).

Mortgage Credit Analysis
Worksheet (HUD- 92900PUR or 92900-WS, as
applicable) with any
supporting documents.
 Section 203(k) HUD92700, Maximum
Mortgage Worksheet
 Energy Efficient

 [UNDERLINING AND BOLD OURS IN LEFT COLUMN,
FOURTH BOX].

App.81a
Mortgage (EEM) and/or
203(h) program documentation
 Secondary Lien
Exhibits
 Buydown Agreements
 Attachments, memos,
and clarifications*
Local Health Authority’s Copy of the Mortgage
Approval* for individual
Note and all applicable
water and sewer systems. riders and allonges.
Copy of Security Instrument with all applicable
riders.
New Construction
Exhibits:
 Builder’s Certification,
Form HUD-92541
 Builder’s Warranty of
Completion Form HUD92544
 Evidence of 10-Year
Warranty Plan Coverage*
 Inspection Report(s)HUD-92051, VA-26- 1839
for the Department of
Veteran Affairs (VA),
Certificate of Reasonable

HUD-1 Settlement Statement.
HUD-1 Addendum (for
purchases) that comply

App.82a
Value (CRV), and Master
Certificate of Reasonable
Value (MCRV), or HUDapproved local building
authority inspections*

with Section 2-14 of this
handbook.

 Subterranean Termite
Treatment ReportNPCA-99a and NPCA99b*
9.

HUD Handbook 4940.3, Rev. 1, Minimum
Design Standards for Community Sewerage
Systems, Chapter CS1302 ff., provides:
CS1302 SEPTIC TANKS
CS1302-1 Septic tanks shall be buried
and watertight. All septic tank systems
shall be located and installed in accordance with local health and environmental
regulations.

10. Single Family Housing Guaranteed Loan Program (SFHGLP) 7 C.F.R. § 3555.1; 42 U.S.C.
§ 1471; 7 C.F.R. § 3555.5(d) (1):
Lenders must use due diligence in regard
to potential environmental hazards to
ensure the property is decent, safe and
sanitary and of sufficient value to
adequately secure the loan. The level of
due diligence review to determine potential environmental hazards must be
equivalent to the standards established
by Fannie Mae, Freddie Mac, FHA, or
the VA.

App.83a
11. 7 C.F.R. § 3555.202 requires that new housing
“must be constructed in accordance with
certified plans and specifications, . . . . ”
12. 38 U.S.C. § 3704 restricts the ability to grant
loans. “No loan for the purchase or construction of residential property shall be financed
through the assistance of this chapter unless
the property meets or exceeds minimum requirements for planning construction, and
general acceptability prescribed by the Secretary;. . . . ”
Fully aware of these Qualification Requirements,
particularly those related to the septic systems of the
real properties, the co-defendant banks executed mortgage loan agreements despite the fact that the real
properties of Mansiones Hacienda Jiménez did NOT
qualify according to the Federal Regulations. Even
during the financing process of the properties of
Mansiones Hacienda Jiménez, the co-defendant banks
neglected to obtain the certifications from the Department of Health for the septic systems of the aforementioned real properties.
On May 10, 2016, the Department of Health, Environmental Health Program, issued the following
Negative Certification that shows that the septic systems of Mansiones Hacienda Jiménez DO NOT meet
the minimum location requirements.

App.84a

In view of the foregoing, the question of law
presented by the above-captioned case should be considered:

App.85a
Are the mortgage loan agreements executed
with respect to the real properties in Mansiones Hacienda Jiménez null and void ab
initio for violating federal regulations?
Yes, they are. The mortgage loan agreements executed with respect to the real properties in Mansiones
Hacienda Jiménez are null and void ab initio for
violating federal regulations. The reasons for this
include the fact that the septic systems of each real
property fail to meet the minimum location requirements (the septic tank of each property of Mansiones
Hacienda Jiménez is less than 10 feet from the dwelling. In most of the dwellings, it is less than 3 feet, 4
feet, 5 feet). By all accounts, the properties of Mansiones Hacienda Jiménez did NOT qualify for the
execution of the mortgage loans in dispute.
In view of these facts, and in accordance with
due process, the lower courts had the ministerial
duty to grant the appropriate RELIEF under law: the
Declaration of the ab initio nullity of the mortgage
loan agreements of Mansiones Hacienda Jiménez and
an Order for the return of all the money paid by the
plaintiffs for said loans. The plaintiffs-petitioners
would have thus been freed from their ties to these
dwellings, they would recover their loan-to-value
ratio and they would be able to rebuild their lives in
other dwellings.
Moreover, when a motion to dismiss is filed on
the grounds of failure to state a claim upon which
relief can be granted [R. 10.2 (5)], the court must accept
as true the allegations in the complaint and consider
them in the most reasonable way for the plaintiff.
García Gómez v. E.L.A., 2005 T.S.P.R. 14. In conducting its analysis, the court must grant the benefit of

App.86a
however much inference is possible with respect to
the facts well-pleaded in the complaint or counterclaim.
Montañez v. Hosp. Metropolitano, 157 D.P.R. 96 (2002).
For a defendant to prevail, he must demonstrate
that the plaintiff has no right to any relief under any
factual circumstances that can be proven. In other
words, in ruling on a motion to dismiss on this basis,
the court takes all the alleged facts as true and
interprets the assertions in the most favorable way
possible for the plaintiff, formulating in his favor all
the inferences that may assist him.
The examination of the allegations for the purposes
of adjudicating a motion to dismiss is wholly liberal,
and the motion to dismiss is granted only when,
according to the facts pleaded, no relief whatsoever
can be granted to the plaintiff. Sánchez Montalvo v.
Autoridad de los Puertos, 153 D.P.R. 559 (2001);

Harguindey Ferrer v. Universidad Interamericana de
Puerto Rico, 148 D.P.R. 13 (1999); Pressure Vessels of
P.R. v. Empire Gas of PR Progasco, Inc. 137 D.P.R.
497 (1998); Ramos Lozada v. Orientalist Rattan Furn.,
Inc. 130 D.P.R. 712 (1994); Candal Vicente v. CT
Radiology, Inc. 112 D.P.R. 227 (1982); Iziquierdo [sic] v.
Izquierdo Serrano, 80 D.P.R. 71 (1957). Hernández

Colón, Práctica Jurídica de Puerto Rico, Derecho Procesal Civil, 4th Edition, 2007, page 231.

In S.L.G. Sierra v. Rodríguez Luciano, 163 D.P.R.
738 (2005), the Supreme Court established that a
complaint should not be dismissed—on the grounds of
failing to state a claim for which relief can be granted—
unless it is “fully clear that the plaintiff has no right
to any relief under any factual circumstances that
can be proven in support of his claim.” Reyes v. Sucn.
Sánchez Soto, 98 DPR 305, 309 (1970).

App.87a
Where there is a motion by a party to dismiss a
complaint, the action must be interpreted as liberally
as possible in favor of the plaintiff: “Depriving a
litigant of his day in court is a measure that is appropriate only in extreme cases.” Ortiz v. Nationwide
Mutual Ins. Co. 2003 TSPR 32, Op. of March 4, 2003,
on p. 2; Metropolitana de Préstamos v. López de
Victoria, 141 DPR 844, (1996); Candal v. CT Radiology
Office, Inc., supra; Moa v. E.L.A., 100 D.P.R. 573,
582 (1972); Martín Santos v. C.R.U.V., 89 D.P.R. 175
(1963). See also: Meléndez v. Iturrondo, 71 D.P.R. 60, 63
(1950); Guadalupe v. Rodríguez, 70 D.P.R. 958 (1950);
Serra v. Autoridad de Transporte, 68 D.P.R. 626, 628
(1948); Vázquez v. González, 61 D.P.R. 277 (1943).
In the instant case, the plaintiffs’ allegations
demonstrate a PLETHORA OF WELL-PLEADED
FACTS. It suffices to take said facts as true and
make the applicable inferences to conclude that the
plaintiffs’ allegations are sufficient to adduce a cause
of action against the defendant. Furthermore, since
the doctrine of res judicata was employed in the
dismissal judgment, we should briefly note three substantive points with respect thereto.
FIRST: [In] García v. Gobierno de la Capital, 72
D.P.R. 138 (1951), the Supreme Court ruled that a
judgment dismissing a complaint by virtue of a motion
to dismiss on the grounds of FAILING to adduce sufficient facts constituting cause of action does NOT
support a defense of res judicata against a subsequent
complaint in which the error made is remedied and
the essential allegation that was omitted in the first
complaint is included.
This is because such a judgment of dismissal is
not a determination on the merits.

App.88a
SECOND: “The Court hold [sic] that a dismissal
pursuant to Rule 12 (b)(6) merely goes to the form of
the pleadings and the adequacy and sufficiency of the
complaint, and it stops there. The prior suit does not
act as a bar to the instant case as it was neither an
adjudication on the merits nor a determination of
any legal issue. Rather, as the Court [sic] have said,
the prior claim was dismissed for insufficiency in the
pleadings which would render the doctrine of res
judicata and collateral inapplicable.” First Sav. &
Loan Asso. v. First Federal Sav. & Loan Asso., 547 F.
Supp. 988 (1982).
THIRD: The Supreme Court has excluded the
application of this doctrine of res judicata on multiple
occasions to prevent an injustice or when dealing
with a case permeated with considerations of public
order. See, e.g., Meléndez Soberal v. García Marrero,
158 D.P.R. 77 (2002); Pagán Hernández v. U.P.R., 107
D.P.R. 720 (1978); Figueroa v. Municipio de San Juan,
98 D.P.R. 534 (1970); Feliciano Ruiz v. Alfonso Develop.
Corp., 96 D.P.R. 108 (1968); Rodríguez v. Sucn. Pirazzi,
89 D.P.R. 506 (1963); Suárez Fuentes v. Tribunal
Superior, 88 D.P.R. 136 (1963); Riera v. Pizá, 85
D.P.R. 268 (1962); Millán Soto v. Caribe Motors Corp.,
83 D.P.R. 494 (1961); Pérez v. Bauzá, 83 D.P.R. 220
(1961); Viera v. Comisión Hípica, 81 D.P.R. 707 (1960);
Tartak v. Tribunal de Distrito, 74 D.P.R. 862 (1953);
Vidal v. Monagas, 66 D.P.R. 622 (1946). This is in
recognition of the fact that it is not appropriate “to
apply the doctrine of res judicata inflexibly when doing
so would defeat the ends of justice, especially if there
are considerations of public order involved.” Pérez v.
Bauzá, 83 D.P.R. 220 (1961), on p. 226.

App.89a
CAPTION OF THE JUDGMENT

App.90a
CAPTION OF THE COMPLAINT

Contrary to the assessment of the Court a quo,
the above-captioned case DOES NOT BRING CAUSE
FOR CONSTRUCTION DEFECTS. As a result of its
faulty assessment, we can see that the caption of the
dismissal judgment, supra, labeled the above-captioned
case with the cause of CONSTRUCTION DEFECTS. If

App.91a
the cause of the above-captioned case were in actual
fact CONSTRUCTION DEFECTS then we could understand, to a certain degree, the RATIO DECIDENDI of
the Court a quo in dismissing the above-captioned
complaint (CONSTRUCTION DEFECTS), because a
complaint was previously filed for the cause of
CONSTRUCTION DEFECTS before the sister court of
Fajardo [Gil Freddy Mojica, et al. v. Braulio Agosto
Vega, et al., Civil NSCI-2007-00504, hereinafter, the
Gil Freddy Case or Gil Freddy Complaint].
We stated that we would understand the Ratio
Decidendi to a certain degree because, in correct civil

procedure, the judgment dismissing the Gil Freddy
complaint, for construction defects, which was issued
by the Court of Fajardo under Rule 10.2 (5) of Civil
Procedure for failure to state a cause of action for
which relief can be granted, against the banking
institutions that were sued in that case, DID NOT
CONSTITUTE AN ADJUDICATION ON THE
MERITS, since where a complaint is dismissed under
Rule 10.2 (5) of Civil Procedure, what is determined
is that THERE ARE INSUFFICIENT FACTS to sustain
the CAUSE in order to grant relief in favor of the
plaintiff bringing the aforesaid cause against the
defendant. In this procedural scenario, the plaintiff
can file a new complaint WITH FACTS THAT ARE
SUFFICIENT to support his CAUSE, as long as the
statute of limitations on the cause of action has not
expired as of the date on which it is filed.

The above-captioned case (the Luis A. Ramos case),
contrary to the determination of the Court a quo,
DOES NOT BRING CAUSE FOR CONSTRUCTION
DEFECTS. The Luis A. Ramos case BRINGS CAUSE
FOR ISSUANCE OF A DECLARATION ON THE

App.92a
VALIDITY OF THE MORTGAGE LOAN AGREEMENTS. ARE THEY OR ARE THEY NOT VALID
GIVEN THE FACT THAT THEY WERE EXECUTED IN VIOLATION OF FEDERAL REGULATIONS?
The Gil Freddy and Luis A. Ramos cases are so
different that the determination in the former cannot
be reviewed beyond the Supreme Court of Puerto Rico.
However, the Luis A. Ramos case can be reviewed by
the U.S. SUPREME COURT.
From the foregoing, it is concluded that the judgment dismissing the complaint under Rule 10.2(5) in
favor of the Permanent Banks in the Gil Freddy case
does NOT have authority of res judicata, nor does
Rule 10.2 of the Rules of Civil Procedure apply to the
above-captioned case. Therefore, the imposition of attorney fees is inappropriate and constitutes, on the one
hand, an abuse of discretion and, on the other hand, a
clear act of injustice.
VIII. Prayer for Relief
WHEREFORE, we petition this Honorable Supreme Court to reverse the contested judgment of
dismissal and to order the resumption of the proceedings.
In San Juan, Puerto Rico, Today, May 21, 2019.
Respectfully Submitted,
Monge La Fosse
ATTORNEYS & COUNSELLORS AT
LAW, P.S.C.
Po Box 192053
San Juan, PR 00919-2053

App.93a
P: (787) 765-9090
F: (787) 765-9035
M: (787) 413-1135
Lic: 12496
mongelafosselaw@gmail.com
I CERTIFY: that on the date of filing hereof, I have
sent a true and exact copy of the above brief and a
true and exact digital copy of its appendices by
registered mail with return receipt requested to all
the attorneys and parties of record at their respective
addresses, and by email; to the Court of First Instance
of San Juan (without digitized appendix) by registered
mail with return receipt requested and through the
Unified Case Management and Administration System
(SUMAC); and to the Court of Appeals (without digitized appendix) by registered mail with return receipt
requested.
PETITION FOR WRIT OF CERTIORARI
APPENDIX TABLE OF CONTENTS
Appendix digital file number

Pages

DISC NUMBER ONE (1)
PAGE 1-1720
1. Complaint (Luis A. Ramos González
appearing) Dated August 31, 2017

1-1720

DISC NUMBER TWO (2) PAGE 1721-3597
2. Motion on statement regarding
physical and email submission of

1721-1731

App.94a
Complaint and Exhibits due to serious
technical problems of SUMAC [Unified
Case Management and Administration
System] (Luis A. Ramos González
appearing)
Dated August 31, 2017
3. Motion regarding physical submission
of exhibits due to volume and content
type (Luis A. Ramos González appearing)
Dated August 31, 2017
4. Notice from the Court of First
Instance Re: Motion to dismiss
Dated January 9, 2017
Notified on January 9, 2017
5. Motion to dismiss and requesting strict
imposition of attorney fees (Banco Santander appearing)
Dated January 10, 2017
6. Motion to request change of venue
under Rule 3 of the Rules of Civil Procedure of Puerto Rico (Scotiabank appearing)
Dated January 16, 2018
7. Notice from the Court of First Instance
Re: Motion to request change of venue
under Rule 3 of the Rules of Civil Procedure
Dated January 16, 2018
Notified on January 16, 2018
8. Petition for time to establish position
on the motions of Santander and
Scotiabank, both without merit because:
(i) the above-captioned cause is different
from the construction defects case brought
previously; and (ii) Rule 3.5 of the Rules of

1732-1734

1735-1737

1738-1830

1831-1934

1935-1937

1938-1946

App.95a
Civil Procedure is the rule applicable to the
instant case because it is a cause of contracts executed in violation of federal
regulations requiring a declaratory decree
on their validity. (Luis A. Ramos González
appearing)
Dated January 17, 2018
9. Notice from the Court of First Instance
Re: Petition for time to establish position
on the motions of Santander and Scotiabank, both without merit because: (i) the
above-captioned cause is different from
the construction defects case brought previously; and (ii) Rule 3.5 of the Rules of
Civil Procedure is the rule applicable to the
instant case because it is a cause of
contracts executed in violation of federal
regulations requiring a declaratory decree
on their validity.
Dated January 17, 2018
Notified on January 18, 2018
10. Motion for change of venue
(PRIH, LLC appearing)
Dated January 19, 2018
11. Notice from the Court of First
Instance Re: Motion for change of venue
Dated January 19, 2018
Notified on January 19, 2018
12. Motion requesting that the
dispositive motion be addressed before
weighing the motion for change of venue
(Operating Partner Co., LLC appearing)
Dated January 22, 2018
13. Notice from the Court of First
Instance Re: Motion requesting that the

1947-1949

1950-1954
1955-1957

1958-1962

1963-1965

App.96a
dispositive motion be addressed before
weighing the motion for change of venue
Dated January 22, 2018
Notified on January 23, 2018
14. Amended petition for time to
establish position on the motions of
Santander and Scotiabank, both without
merit because: (i) the above-captioned
cause is different from the construction
defects case brought previously; and (ii)
Rule 3.5 of the Rules of Civil Procedure
is the rule applicable to the instant case
because it is a case of contracts executed
in violation of federal regulations requiring a declaratory decree on their validity
(Luis A. Ramos appearing)
Dated January 29, 2018
15. Notice from the Court of First
Instance Re: Amended petition for time
to establish position on the motions of
Santander and Scotiabank, both without
merit because: (i) the above-captioned
cause is different from the construction
defects case brought previously; and (ii)
Rule 3.5 of the Rules of Civil Procedure
is the rule applicable to the instant case
because it is a cause of contracts executed
in violation of federal regulations requiring a declaratory decree on their validity
Dated January 29, 2018
Notified on January 30, 2018
16. Answer to complaint (Banco
Santander appearing)
Dated February 2, 2018
17. Notice from the Court of First

1966-1976

1977-1979

1980-1988
1989-1991

App.97a
Instance Re: Answer to complaint
Dated February 2, 2018
Notified on February 2, 2018
18. Notice to the Court to clarify record
(Luis A. Ramos González appearing)
Dated February 16, 2018
19. Notice from the Court of First
Instance Re: Notice to the Court to
clarify record
Dated February 16, 2018
Notified on February 16, 2018
20. Motion to dismiss under Rule 10.2(5)
of the Rules of Civil Procedure (BPPR
appearing)
Dated February 27, 2018
21. Motion in compliance with order;
opposition to motion for change of venue:
opposition to motion to dismiss;
inapplicability of the legal doctrines of res
judicata and consolidation and Rule 10.2
(5) of the Rules of Civil Procedure (Luis
A. Ramos González appearing)
Dated March 1, 2018
22. Motion to dismiss under Rule 10.2 of
the Rules of Civil Procedure (Rushmore
Loan appearing)
Dated March 1, 2018
23. Answer to complaint (TRM, LLC
appearing)
Dated March 2, 2018
24. Motion to dismiss the complaint
with respect to Co-defendant Firstbank
under Rule 10.2(5) of the Rules of Civil
Procedure (Firstbank appearing)

1992-1998
1999-2001

2002-2395

2396-2412

2413-2686

2687-2702
2703-2726

App.98a
Dated March 5, 2018
25. Notice from the Court of First
Instance Re: Answer to complaint
Dated March 5, 2018
Notified on March 6, 2018
26. Notice from the Court of First
Instance Re: Motion to dismiss under
Rule 10.2 of the Rules of Civil Procedure
Dated March 5, 2018
Notified on March 6, 2018
27. Motion to join motion to dismiss
(PRIH, LLC appearing)
Dated March 7, 2018
28. Brief reply to motion in opposition to
change of venue and dismissal filed by the
plaintiffs (Banco Santander appearing)
Dated March 7, 2018
29. Reply to opposition to motion for
change of venue and general reply to
plaintiffs' opposition to motion to dismiss
(Scotiabank appearing)
Dated March 15, 2018
30. Reply to “Opposition to motion to
dismiss” and Request for motion to
dismiss to be deemed submitted without
opposition (BPPR appearing)
Dated March 16, 2018
31. Motion to dismiss and requesting
penalties (Scotiabank appearing)
Dated March 16, 2018
32. Notice from the Court of First
Instance Re: Reply to ”Opposition to
motion to dismiss” and Request for
motion to dismiss to be deemed

2727-2729

2730-2732

2733-2737
2738-2742

2743-2822

2823-2828

2829-2867
2868-2870

App.99a
submitted without opposition
Dated March 16, 2018
Notified on March 20, 2018
33. Motion for extension of time (Luis A.
Ramos González appearing)
Dated March 21, 2018
34. Notice from the Court of First
Instance Re: Motion for extension of time
Dated March 27, 2018
Notified on March 27, 2018
35. Motion to dismiss
(Oriental Bank appearing)
Dated June 6, 2018
36. Notice from the Court of First
Instance Re: Judgment
Dated September 19, 2018
Notified on September 21, 2018
37. Motion for extension of time with
respect to Memorandum of Costs (Luis
A. Ramos González appearing)
Dated October 5, 2018
38. Motion for reconsideration of dismissal judgment (Luis A. Ramos
González appearing)
Dated October 5, 2018
39. Notice from the Court of First
Instance Re: Motion for reconsideration
of dismissal judgment Dated October 12,
2018 Notified on October 15, 2018
40. Opposition to motion for
reconsideration (TRM, LLC appearing)
Dated October 24, 2018
41. Opposition to motion for
reconsideration (Oriental Bank

2871-2878
2879-2881

2882-2976
2977-2987

2988-2996

2997-3041

3042-3044

3045-3061
3062-3073

App.100a
appearing) Dated October 31, 2018
42. Opposition to motion for
reconsideration (BPPR appearing)
Dated October 31, 2018
43. Opposition to motion for
Reconsideration (Operating Partner
Co., LLC appearing)
Dated November 5, 2018
44. Opposition to motion for reconsideration (Rushmore Loan appearing)
Dated November 5, 2018
45. Opposition to plaintiffs’ motion for
reconsideration (Scotiabank appearing)
Dated November 5, 2018
46. Opposition to motion for reconsideration (Banco Santander appearing)
Dated November 6, 2018
47. Motion joining oppositions to motion
for reconsideration of dismissal
judgment (Firstbank appearing)
Dated November 6, 2018
48. Special motion for time (Luis A.
Ramos González appearing)
Dated November 8, 2018
49. Notice from the Court of First
Instance Re: Motion for reconsideration
of dismissal judgment
Dated November 7, 2018
Notified on November 8, 2018
50. Appeal (Luis A. Ramos
González appearing)
Dated December 10, 2018
51. Notice from the Court of Appeals
Re: Letter reporting the filing of an appeal

3074-3084
3085-3092

3093-3100
3101-3110
3111-3117
3118-3123

3124-3131
3132-3135

3136-3175
3176-3177

App.101a
with the Court of Appeals, KLAN201801350
Dated December 12,2018
Notified on December 12, 2018
52. Notice from the Court of Appeals Re:
Resolution Dated December 13, 2018
Notified on December 13, 2018
53. Brief of Appellees (Operating
Partner Co., LLC appearing)
Dated December 14, 2018
54. Opposition to Appeal (TRM, LLC
appearing) Dated January 4, 2019
55. Appellee’s Brief in Opposition
(BPPR appearing)
Dated January 9, 2019
56. Brief in Opposition (Oriental Bank
appearing) Dated January 9, 2019
57. Opposition to the Appeal
(Scotiabank appearing)
Dated January 9, 2019
58. Opposition to the Appeal (Banco
Santander appearing)
Dated January 15, 2019
59. Motion joining Briefs in Opposition
to Appeal (First Bank PR appearing)
Dated March 14, 2019
60. Notice from the Court of Appeals Re:
Judgment
Dated March 26, 2019
Notified on March 27, 2019
61. Motion for Reconsideration(Luis A.
Ramos González appearing)
Dated April 11, 2019
62. Opposition to Motion for

3178-3180
3181-3440
3441-3464
3465-3495
3496-3521
3522-3543
3544-3555
3556-3559
3560-3572

3573-3583
3584-3588

App.102a
Reconsideration(BPPR appearing)
Dated April 22, 2019
63. Opposition to Motion for
3589-3593
Reconsideration(Scotiabank
appearing)
Dated April 22, 2019
64. Notice from the Court of Appeals Re: 3594-3597
Resolution on Motion for Reconsideration
Dated April 22, 2019
Notified on April 22, 201

App.103a
========================================
CERTIFICATE OF TRANSLATOR # JF-2019-174
I am a United States court-certified interpreter,
and I CERTIFY that the above is a faithful translation of the Spanish source, which I have performed
to the best of my ability. It consists of forty-three (43)
pages, including this certification sheet, and contains
no changes or erasures.
The content of this translation is a Petition for
Writ of Certiorari to the Honorable Supreme Court of
Puerto Rico, originating from the Court of Appeals Case
No. KLAN-2018-01350, for Civil Case No. SJ2017CV01870,
Luis A. Ramos González et al v. Scotiabank de Puerto
Rico, et al.
The Petition is found on pp. 11 to 35 of this certified translation; it is preceded by a Cover Page (pp. 13), Table of Contents (pp.4-5) and Table of Authorities
(pp. 6 to 10); and followed by an Appendix to the Table
of Contents (pp.36-42)
In Cambridge, Massachusetts, on October 24,
2019.
/s/ Joaquín Font
Joaquín Font
Font Translations
Calle Calaf 400, Suite 268
San Juan, PR 00918
Toll-Free Tel. & Fax: 1-877-JOAQUIN (562-7846)
e-mail: fonttranslations@gmail.com

App.104a
HUD HANDBOOK–EXCERPTS
HUD Handbook 4150.2, Chapter 3, Property
Analysis, General Acceptability Criteria 3-6 A.3,4,5;
Water Supply and Sewage Disposal Systems 3-9a;
Unacceptable Conditions 3-10b
3-6 General Acceptability Criteria for FHA-Insured
Mortgages
These criteria define standards for existing properties to be eligible for FHA mortgage insurance.
Underwriters bear primary responsibility for determining eligibility; however, the appraiser is the on-site
representative for the lender and provides preliminary
verification that these standards have been met.
Many of the requirements are technical and beyond
the expertise of the appraiser. They are presented
here for reference, and the appraiser’s responsibility
is noted by category.
These criteria form the basis for identifying the
deficiencies of the property that the appraiser must
note in the VC form and that must be addressed by
the lender before closing. When examination of existing
construction reveals noncompliance with the General
Acceptability Criteria, an appropriate specific
condition to correct the deficiency is required if correction is feasible. If correction is not feasible and
compliance can be effected only by major repairs or
alterations, the lender will reject the property. The
appraiser is only required to note conditions that are
readily observable.
As-Repaired Appraisal. The appraiser prepares
the valuation “as-repaired” subject to the conditions

App.105a
noted on the VC form. Those items not listed on the
VC will form the basis of comparison to comparable
properties for physical conditions.
Required repairs are limited to those repairs
necessary to preserve the continued marketability of
the property and to protect the health and safety of
the occupants.
Deferred Maintenance. Any operable or useful
element that will have reached the end of its useful
life within two years should be replaced. With respect
to such deferred maintenance items, exercise good
judgment in requiring repair.
Replacement Because of Age. If an element is
functioning well, do not recommend replacement simply
because of its age.
If the septic system shows evidence of failure
because of age, recommend a specific inspection.
Valuation Conditions. The Valuation Conditions
Form and its protocol help the appraiser evaluate the
standards required by the General Acceptability
Criteria. The criteria are described below. The appraiser
must ascertain if the condition called for exists and
mark yes if it does.
If the observed deficiencies exist, mark “YES” in
the appropriate location on the Valuation Conditions
Form, condition the appraisal on the requirement for
repair or further inspection and prepare the appraisal
“as-repaired” subject to the satisfaction of the condition.
The following guidelines are HUD’s General
Acceptability Criteria for existing properties. They
provide general guidance for determining the property’s
eligibility for FHA mortgage insurance. For instructions

App.106a
on filling out the VC form, see the protocol in Appendix
D.
A. General Acceptability Criteria
These minimum requirements for existing housing
apply to existing buildings and to the sites on which
they are located. The buildings may be:


Detached



Semidetached



Multiplex



row houses



individual condominium units

These requirements also cover the immediate site
environment for the dwelling, including streets, other
services and facilities associated with the site.
1. Subject Property
The subject property must be adequately identified
as a single, marketable real estate entity. However, a
primary plot with a secondary plot for an appurtenant
garage or for another use contributing to the marketability of the property will be acceptable if the two
plots are contiguous and comprise a readily marketable
real estate entity.
2. Hazards
The property must be free of all known hazards
and adverse conditions that:


may affect the health and safety of the occupants



may affect the structural soundness of the
improvements

App.107a


may impair the customary use and enjoyment of
the property

These hazards include toxic chemicals, radioactive
materials, other pollution, hazardous activities, potential damage from soil or other differential ground
movements, ground water, inadequate surface drainage,
flood, erosion, excessive noise and other hazards on
or off site.
If the property meets the acceptability guidelines
in the VC protocol (Appendix D), quantify the deficiency’s impact in the property valuation.
If the property does not meet the acceptability
guidelines, note the appropriate hazard in VC-1 and
explain.
In the appraisal of new and proposed construction,
special conditions may exist or arise during construction
that were unforeseen and necessitate precautionary
or hazard mitigation measures. HUD will require
corrective work to mitigate potential adverse effects
from the special conditions as necessary.
Special conditions include:


rock formations



unstable soils or slopes



high ground water levels



springs



other conditions that may have a negative effect
on the property value

The builder must ensure proper design, construction and satisfactory performance when any of these
issues are present.

App.108a
For specific instructions about noting this information in the VC form, see VC-1 in the protocol
(Appendix D).
3. Soil Contamination
a. Septic and Sewage
If a septic system is part of the subject property,
the appraiser must determine whether the area is
free of conditions that adversely affect the operation
of the system. Consider the following:


the type of system



topography



depth to ground water



soil permeability



the type of soil to a depth several feet below
the surface

If in doubt about the operation of sewage disposal
systems in the neighborhood, mark “YES” in VC-2,
condition the appraisal on further inspection and prepare the appraisal “as-repaired” subject to satisfaction
of the condition.
The lender will contact the local health authority
or a professional to determine the viability of the
system.
b. Other Soil Contaminants
The following conditions may indicate unacceptable
levels of soil contamination: pools of liquid, pits, ponds,
lagoons, stressed vegetation, stained soils or pavement,
drums or odors.

App.109a
If there is evidence of hazardous substances in
the soil, require further inspection. Mark “YES” in
VC-2, condition the appraisal on further inspection
and prepare the appraisal “as-repaired” subject to
the satisfaction of condition.
c. Underground Storage Tanks
During the site inspection, the appraiser must
walk the property and search for readily observable
evidence of underground storage tanks. Evidence would
include fill pipes, pumps, ventilation caps, etc.
If there is evidence of underground storage tanks,
require further analysis. Mark “YES” in VC-2, condition
the appraisal on that requirement and prepare the
appraisal “as-repaired” subject to the satisfaction of
the condition.
4. Drainage
The site must be graded to provide positive drainage away from the perimeter walls of the dwelling and
to prevent standing water on the site. Signs of inadequate draining include standing water proximate to
the structure and no mitigation measures such as
gutters or downspouts.
For specific instructions about noting this information in the VC form, see VC-3 in the protocol
(Appendix D).
If drainage is inadequate and needs improvement,
mark “YES” in VC-3, make a repair requirement,
condition the appraisal on that requirement and prepare the appraisal “as-repaired” subject to the satisfaction of the condition.

App.110a
5. Water Supply And Sewage Systems
Each living unit must contain the following:


domestic hot water



a continuing and sufficient supply of potable
water under adequate pressure and of appropriate quality for all household uses



sanitary facilities and a safe method of sewage
disposal

Connection must be made to a public water/sewer
system or a community water/sewer system, if connection costs to the public or community system are
reasonable (3% or less of the estimated value of the
property). If connection costs exceed 3%, the existing
on-site systems will be acceptable provided they are
functioning properly and meet the requirements of
the local health department.
If the correction is feasible, require connection.
Mark “YES” in VC-4, condition the appraisal on the
requirement and prepare the appraisal “as repaired”
subject to the satisfaction of the condition.
a. Individual Water Supply and Sewage
Disposal Systems
If water and sewer systems are not connected to
public systems, the water well and/or septic system
must meet the requirements of the local health
authority with jurisdiction. If the local authority does
not have specific requirements, the maximum contaminant levels established by the Environmental Protection
Agency (EPA) will apply. If the authority is unable to
perform the water quality analysis in a timely manner,
a private commercial testing laboratory or a licensed

App.111a
sanitary engineer acceptable to the authority may take
and test water samples.


Each living unit must be provided with a sewage
disposal system that is adequate to dispose of all
domestic wastes and does not create a nuisance
or in any way endanger the public health.



Individual pit privies are permitted where such
facilities are customary and are the only feasible
means of waste disposal and, if they are
installed in accordance with the recommendations of the local Department of Health.

If there is a well or septic system on the property,
mark “YES” in VC4, condition the appraisal on further
inspection by the lender and prepare the appraisal
“as-repaired” subject to satisfaction of the condition.
A domestic well must be a minimum of 50 feet from
a septic tank, 100 feet from the septic tank’s drain
field and a minimum of 10 feet from any property line.
Clearly show the location of private wells and
septic systems on the site sketch and note the distance
between the two.
b. Unacceptable Conditions
The following water well conditions are unacceptable and must be noted in VC-4:


mechanical chlorinators



water flow that decreases noticeably when
simultaneously running water in several plumbing fixtures (the well may not be able to provide
a continuous, adequate supply of water)

App.112a


properties served by dug wells unless a complete
survey conducted by an engineer was delivered
to the lender and subsequently given to the
appraiser



properties served by springs, lakes, rivers or
cisterns (3-6)

To be considered acceptable, the engineer’s survey
must include these items:


a health report with no qualifications



indication that an inoperative well was cased,
sealed and capped with concrete to a depth of
at least 20 feet



a pump test indicating a flow of at least 3-5
gallons per minute supply for an existing well,
and 5 gallons per minute for a new well



an acceptable septic report



no indication of exposure to environmental
contamination, mechanical chlorination or anything else that adversely affects health and
safety

If these requirements for individual wells or septic
tanks are not met, note them in VC-4 and prepare the
appraisal “as-repaired” subject to further inspection.
The lender will require the engineer’s follow-up
report and will arrange forany required corrective
measures.

App.113a
HUD Handbook 4910.1; Chapter 6;
Construction; 615-2, 615-3
615-2 Water Supply System
615-2.1 General
Each living unit shall be provided with a continuing and sufficient supply of safe water under adequate
pressure and of appropriate quality for all household
uses, and one that will not impair the functioning or
durability of the plumbing system or attachments.
615-2.2 Source of Water Supply
Whenever feasible, connection shall be made to a
publicly owned or publicly controlled water supply
system that is adequate to serve the demands of the
project. b. When a public system is not available, connection shall be made to a community system acceptable to the HUD Field Office and approved by the
local health authority. The chemical and bacteriological standards of the health authority shall apply.
In the absence of such standards, the maximum
contaminant levels of the Environmental Protection
Agency shall apply. c. Community water supply systems shall comply with HUD Handbook 4940.2.
615-3 Sewage Disposal System
615-3.1 General
Each living unit shall be provided with a watercarried system adequate to dispose of domestic wastes
in a manner which will not create a nuisance or endanger the health of the occupants or the public.

App.114a
615-3.2 Method of Sewage Disposal
a. Whenever feasible, connection shall be made
to a publicly owned or publicly controlled system that
is adequate to serve the needs of the project.
b. When a publicly owned or publicly controlled
system is not available or connection to or service
therefrom is not feasible, connection shall be made to
a community system which complies with HUD Handbook 4940.3 Rev.1-1992 and is acceptable to local regulatory bodies. Evidence of approval by such authorities
for each completed system shall be submitted to the
HUD Field Office.
HUD Handbook 4000.1, Chapter 3-6.A.3
Soil Contamination (P. 3-9)
A. General Acceptability Criteria
3. Soil Contamination
a. Septic and Sewage
If a septic system is part of the subject property,
the appraiser must determine whether the area is
free of conditions that adversely affect the operation
of the system. Consider the following:


the type of system



topography



depth to ground water



soil permeability



the type of soil to a depth several feet below
the surface

App.115a
If in doubt about the operation of sewage disposal
systems in the neighborhood, mark “YES” in VC-2,
condition the appraisal on further inspection and prepare the appraisal “as-repaired” subject to satisfaction of the condition.
The lender will contact the local health authority
or a professional to determine the viability of the
system.
HUD Handbook 4155.2, Chapter 4.1.e
Lender Responsibility for Determination of Property
Eligibility and Accuracy of Appraised Value (P. 4-3)
Lenders are responsible for properly reviewing
appraisals and determining if the appraised value
used to determine the mortgage amount is accurate
and adequately supports the value conclusion.
References: For more information on property
eligibility, see HUD 4155.1 4.B HUD 4150.2, Valuation
Analysis for Single Family One to Four Unit Dwellings,
Appendix D, and HUD 4930.3G, Permanent Foundations Guide for Manufactured Housing.
HUD Handbook 4000.1, Chapter 3-6.A.4.a
Drainage-Individual Water Supply and
Disposal Systems (P. 3-10, 3-11)

Sewage

If water and sewer systems are not connected to
public systems, the water well and/or septic system
must meet the requirements of the local health
authority with jurisdiction. If the local authority does
not have specific requirements, the maximum contaminant levels established by the Environmental Protection Agency (EPA) will apply. If the authority is
unable to perform the water quality analysis in a timely

App.116a
manner, a private commercial testing laboratory or a
licensed sanitary engineer acceptable to the authority may take and test water samples.
Each living unit must be provided with a sewage
disposal system that is adequate to dispose of all
domestic wastes and does not create a nuisance or in
any way endanger the public health.” [Emphasis added]
HUD Handbook 4155.2, Chapter 4.1.d Verification of
Compliance With Property Requirements (P. 4-3)
As the on-site representative for the lender, the
appraiser provides preliminary verification that a
property meets the General Acceptability Standards,
which include the Minimum Property Requirements
(MPR) or Minimum Property Standards (MPS).
The table below outlines the requirements for
FHA financing.
To be eligible for FHA
Financing…

Must comply with
HUD’s Minimum Property Standards…

New Construction

Including
24 CFR 200.926d.

Existing Construction

Contained in HUD
4905.1 Requirements
for Existing Housing
One-to Four-Family
Living Unites,
Appendix D.

App.117a
Manufactured homes

Contained in HUD
4930.3G Permanent
Foundation Guide for
Manufactured Housing

HUD Handbook 4940.3, Rev. 1, Minimum Design
Standards for Community Sewerage Systems, Chapter
CS1302,
CS1302 SEPTIC TANKS
CS1302-1 Septic tanks shall be buried and watertight. All septic tank systems shall be located and
installed in accordance with local health and environmental regulations. [Emphasis added]
HUD Handbook 4000.1, Chapter II.D.3.q
Onsite Sewage Disposal Systems (P. 505)
i. Definition
An Onsite Sewage Disposal System refers to wastewater systems designed to treat and dispose of effluent
on the same Property that produces the wastewater.
ii. Required Analysis and Reporting
The Appraiser must note the deficiency of MPR
or MPS and notify the Mortgagee if the Property is
not served by an off-site sewer system and any living
unit is not provided with an Onsite Sewage Disposal
System adequate to dispose of all domestic wastes in
a manner that will not create a nuisance, or in any
way endanger the public health. [Emphasis added]
The Appraiser must visually inspect the Onsite
Sewage Disposal System and its surrounding area. The
Appraiser must require an inspection to ensure that

App.118a
the system is in proper working order if there are
readily observable signs of system failure. The
Appraiser must report on the availability of public
sewer to the site. [Emphasis added]
The Appraiser must note the deficiency of MPR
or MPS and notify the Mortgagee if the Appraiser has
evidence that the Onsite Sewage Disposal System is
not sufficient.”
HUD Handbook 4150.2, Chapter 3
Property Analysis, General Acceptability Criteria 3-6
A.3,4,5; Water Supply and Sewage Disposal Systems
3-9a; Unacceptable Conditions 3-10b.
The lender, who is ultimately responsible for
rejecting the site, relies on the appraiser’s site analysis
to make this determination. Guidelines for determining
site acceptability follow. The appraiser is required to
note only those readily observable conditions.
A. Unacceptable Sites
FHA guidelines require that a site be rejected if
the property being appraised is subject to hazards,
environmental contaminants, noxious odors, offensive
sights or excessive noises to the point of endangering
the physical improvements or affecting the livability
of the property, its marketability or the health and
safety of its occupants.
Rejection may also be appropriate if the future
economic life of the property is shortened by obvious
and compelling pressure to a higher use, making a
long-term mortgage impractical.
These considerations for rejection apply on a caseby-case basis, taking into account the needs and desires

App.119a
of the purchaser. For example, a site should not be
considered unacceptable simply because it abuts a
commercial use; some commercial uses may not appeal
to a specific market segment while other commercial
uses may.
If the-condition is clearly a health and safety
violation, reject the appraisal and return it to the
lender. If there is any doubt as to the severity, report
the condition and submit the completed report. The
lender must clear the condition and may require an
inspection or reject the property. For those conditions
that cannot be repaired, such as site factors, the
appraised value is based upon the existing conditions.
[Emphasis added]
HUD Handbook 4155.2, Chapter 4.4.g
FHA Policy on Appraisal and Inspection Fees
(P. 4-25)
The submitting lender has the duty to ensure all
documentation is appropriate and conforms to the
requirements of his handbook. The lender must
assemble the processing and closing documents and
place them in the case binder in the order depicted in
Table 1.1, Binder Assembly. [Emphasis added]
Table 1.1 Binder Assembly
Left Side of Binder

Right Side of Binder

Mortgage Assurance of
Screen print of Insurance
Completion,* Form HUD- Application Screen from
92300.
FHA Connection showing
that the insurance Information was accepted by
FHA Connection. Automated Underwriting Feed-

App.120a
back Certificate/Findings
Report. *
Compliance Inspection
Report, form HUD-92051
or other applicable documentation AND evidence
of satisfaction of valuation
conditions (as applicable).
Wood Destroying Insect
Infestation Report, Form
NPCA-1 or State mandated infestation report (as
applicable).

Request for Late Endorsement* in compliance with

Chapter 3 of this
handbook.

Mortgage Credit Analysis
Worksheet (HUD-92900
PUR or 92900-WS, as
applicable) with any supporting documents
 Section 203(k) HUD92700, Maximum Mortgage Worksheet*
 Energy Efficient Mortgage (EEM) and/or
203(h) program
documentation*
 Secondary Lien Exhibits
 Buydown Agreements
 Attachments, memos, and
clarifications*

Local Health Authority’s
Approval* for individual
water and sewer system

Copy of the Mortgage Note
and all applicable riders
and allonges.
Copy of Security Instrument with all applicable
riders.

App.121a
New Construction Exhibits:

HUD-1 Settlement
Statement

 Builder’s Certification,
Form HUD-92541

HUD·1 Addendum
(for purchases) that
comply with Section 2-14
of this handbook.

 Builder’s Warranty of
Completion Form HUD92544
 Evidence of 10-Year
Warranty Plan Coverage*
 Inspection Report(s)HUD-92051, VA-26-1839
for the Department of
Veteran Affairs (VA),
Certificate of Reasonable
Value (CRV), and Master
Certificate of Reasonable
Value (MCRV), or HUD
approved local building
authority inspections*
 Subterranean Termite
Treatment ReportNPCA-99a and
NPCA-99b*

